App. 1
315 So.3d 987
Supreme Court of Mississippi.
Joshua Eric Hawk CLARK a/k/a Joshua Clark
v.
STATE of Mississippi
NO. 2017-CT-00411-SCT
|
02/04/2021
Attorneys and Law Firms
ATTORNEYS FOR APPELLANT: JIM WAIDE, DAN
W. WEBB, Tupelo, DANIEL M. WAIDE, Starkville
ATTORNEY FOR APPELLEE: OFFICE OF THE ATTORNEY GENERAL BY: SCOTT STUART, Jackson
EN BANC.
ON WRIT OF CERTIORARI
CHAMBERLIN, JUSTICE, FOR THE COURT:
¶1. Following the death of his four-month-old daughter, Kyllie Clark, and his subsequent indictment for
murder under Mississippi Code Section 97-3-19(2)(f )
(Rev. 2014), Joshua Clark was convicted of depravedheart murder under Mississippi Code Section 97-319(1)(b). The prosecution relied heavily on the testimony of Dr. Karen Lakin, a pediatrician who opined
that Kyllie’s death resulted from Shaken Baby Syndrome (SBS), now referred to as Abusive Head Trauma
(AHT). The Court of Appeals reversed and remanded

App. 2
Clark’s conviction after finding that crucial parts of
Dr. Lakin’s testimony were unreliable and therefore
inadmissible. Clark v. State, No. 2017-KA-00411COA, 2019 WL 5566234 (Miss. Ct. App. Oct. 29, 2019).
This Court granted certiorari on issues raised both by
Clark and by the State.
¶2. We disagree with the conclusion of the Court of
Appeals that Dr. Lakin’s opinion testimony was inadequately supported to meet the reliability prong of the
Daubert standard and was thus improperly admitted.
See Daubert v. Merrell Dow Pharms., Inc., 509 U.S.
579, 113 S. Ct. 2786, 125 L.Ed. 2d 469 (1993). We hold
instead that the circuit court did not err by admitting
Dr. Lakin’s testimony. Therefore, the judgment of the
Court of Appeals is reversed, and the judgment of the
Itawamba County Circuit Court is reinstated and affirmed.
¶3. Further, we find that Clark’s six additional assignments of error not previously addressed by the
Court of Appeals are without merit. First, we hold that
sufficient evidence existed to establish Clark’s guilt beyond a reasonable doubt. Second, we hold that Mississippi Code Sections 97-3-19(2)(f ) and 97-5-39(2)(c)(iii)
(Rev. 2014) are not unconstitutionally vague. Third, we
find that the circuit court did not abuse its discretion
by instructing the jury on depraved-heart murder.
Fourth, we find that the circuit court did not violate
Clark’s Sixth and Fourteenth Amendment rights to a
fair cross-section of the community by refusing to separate the trials into a guilt phase and a penalty phase
so that jurors opposed to the death penalty could sit at

App. 3
the guilt phase. Fifth, we find that the trial court did
not err by (a) permitting the introduction of evidence
regarding the compensation of Clark’s expert, Dr. Shuman; (b) disallowing impeachment evidence regarding
Dr. Lakin’s divorce and child; or (c) disallowing testimony of Bethany Clark’s drug conviction. Sixth, and
finally, we find that the circuit court did not abuse its
discretion when it admitted, through Dr. Lakin’s testimony, the medical report dictated by nurse practitioner Ashley Weiderhold that was later reviewed and
signed by Dr. Lakin.
FACTS
¶4. On January 5, 2008, Kyllie Clark was left in
Clark’s sole care at around 3 p.m. when his wife, Bethany, and two teenagers staying with the Clarks left
their home. Clark, 2019 WL 5566234, at *2. From approximately 3 p.m. to 5:30 p.m., no one besides Clark
witnessed what occurred in the Clark household. Id.
When Bethany and the teenagers returned, Kyllie’s
condition prompted alarm. Id. at *2. Clark said that
approximately five or ten minutes before Bethany and
the teenagers returned, Kyllie had made a gasping
sound. Id. After one of the teenagers called 911, Clark
brought Kyllie into the bedroom where she went limp.
Id. Bethany brought Kyllie back to the living room and
attempted CPR. Id.
¶5. Kyllie was taken to a local hospital and later
transferred to Le Bonheur Children’s Hospital in Memphis, Tennessee, for specialized care. Id. at *2. Kyllie

App. 4
was diagnosed with rib fractures, retinal and subdural
hemorrhages and brain swelling. Id. The hospital staff
ultimately declared Kyllie brain dead and terminated
life support. Id. at *2. Dr. Lakin, who would later serve
as the State’s primary witness, examined Kyllie at Le
Bonheur and concluded that her death had been
caused by SBS/AHT. Id. at *2. Dr. Lakin’s conclusion
was memorialized in a report dictated by Ashley Weiderhold, a nurse practitioner. Dr. Lakin reviewed and
signed the same report.1
STANDARD OF REVIEW
¶6. “When reviewing a trial court’s decision to allow
or disallow evidence, including expert testimony, we
apply an abuse of discretion standard.” Watts v. Radiator Specialty Co., 990 So. 2d 143, 145-46 (Miss.
2008) (internal quotation marks omitted) (quoting Canadian Nat’l/Ill. Cent. R.R. v. Hall, 953 So. 2d 1084,
1094 (Miss. 2007)). “Therefore, the decision of a trial
court will stand ‘unless we conclude that the discretion
was arbitrary and clearly erroneous, amounting to
an abuse of discretion.’ ” Miss. Transp. Comm’n v.
McLemore, 863 So. 2d 31, 34 (Miss. 2003) (quoting
Puckett v. State, 737 So. 2d 322, 342 (Miss. 1999)).
¶7. Moreover, “[w]hen testing the sufficiency of the
evidence, this Court uses a de novo standard of review.”
Sanford v. State, 247 So. 3d 1242, 1244 (Miss. 2018)
1

Additional relevant facts and procedural history concerning the additional six issues raised by Clark on appeal are provided in the discussion of each issue below.

App. 5
(citing Brooks v. State, 203 So. 3d 1134, 1137 (Miss.
2016)). Thus, “ ‘[t]he relevant question is whether “any
rational trier of fact could have found the essential elements of the crime beyond a reasonable doubt.” ’ ” Id.
(quoting Hearn v. State, 3 So. 3d 722, 740 (Miss.
2008)). And “[t]he evidence is viewed in the light most
favorable to the State.” Id. (quoting Henley v. State,
136 So. 3d 413, 415 (Miss. 2014)).
¶8. Additionally, “[j]ury instructions are generally
within the discretion of the trial court and the settled
standard of review is abuse of discretion.” Bailey v.
State, 78 So. 3d 308, 315 (Miss. 2012) (citing Newell
v. State, 49 So. 3d 66, 73 (Miss. 2010)). We “review[ ]
jury instructions as a whole[,]” and “[w]hen those instructions, ‘taken as a whole fairly—although not perfectly—announce the applicable primary rules of law
. . . no reversible error will be found.’ ” Moody v. State,
202 So. 3d 1235, 1237 (Miss. 2016) (quoting Boyd v.
State, 47 So. 3d 121, 123-24 (Miss. 2010). And “constitutional questions are reviewed de novo.” Armstead v.
State, 196 So. 3d 913, 916 (Miss. 2016) (citing Smith
v. State, 25 So. 3d 264, 267 (Miss. 2009)).
DISCUSSION
¶9. The State and Clark filed petitions for certiorari
raising the following three issues: first, whether the
Court of Appeals applied an incorrect Daubert standard in analyzing the trial court’s admission of portions
of Dr. Lakin’s expert testimony; second, whether, when
the Court of Appeals reverses and orders a new trial

App. 6
because the State’s expert does not meet Mississippi
Rule of Civil Procedure 702 reliability standards, the
Court of Appeals must also address the defendant’s
other assignments of error; and third, whether the
Double Jeopardy Clauses of the United States and
Mississippi Constitutions forbid retrial in a circumstantial evidence case in which the State does not introduce
evidence negating non-criminal, medical causes of the
condition causing the injury. Because we reverse the
Court of Appeals based on our analysis of the first issue
on certiorari, we do not address the remaining two issues raised on certiorari. Further, since we are reversing the Court of Appeals and reinstating the judgment
of the circuit court, we also must address the remaining six assignments of error raised on appeal.
I.

Dr. Lakin’s Testimony

¶10. Dr. Lakin, who examined Kyllie at Le Bonheur
hospital, became the State’s expert witness and testified about SBS/AHT. At trial, Dr. Lakin testified that
she has “lectured extensively in abusive head trauma.”
She then went on to explain SBS/AHT to the trial court
and to the jury. She described how around the “late
[1960s] or early [1970s]” medical findings showed “injured children” with “intracranial hemorrhages” that
resulted from “what we call whiplash injuries.” She
continued explaining that these “injuries involve particularly intracranial hemorrhages called subdural
hemorrhages, which is a bleeding that occurs in the
dura layer of the brain.” She testified that the term
used to describe what caused these injuries was

App. 7
“beginning to be used as shaken baby syndrome.” She
explained that ultimately, SBS has been reduced to a
“component” of the larger diagnosis, AHT.
¶11. In her testimony, Dr. Lakin importantly distinguished between the possession of a prior “history” and
a “lack of significant history.” She testified that in a
case in which she knows of a prior history, like a car
accident, she would not “report that to Child Protective
Services because [she] know[s] that they have been in
a car accident and they have sustained those lifethreatening or fatal injuries.” She continued to explain
that in a case that lacks a prior history in which the
child’s injuries are consistent with a prior history, like
the car accident case, then “in [her] opinion, that combination of findings with a lack of significant history
would, in [her] opinion, be consistent with abusive
head trauma or nonaccidental trauma.”
¶12. Dr. Lakin concluded that the injuries Kyllie
suffered were the result of AHT. The Court of Appeals, however, found that the circuit court erred by
admitting Dr. Lakin’s trial testimony. We disagree.
The circuit court did not err by admitting Dr. Lakin’s
testimony.
¶13. We must not allow ourselves to become the gatekeeper. As we have stated in McLemore: “We are
confident that our learned trial judges can and will
properly assume the role as gatekeeper on questions
of admissibility of expert testimony. . . . The trial
court can identify the specific indicia of reliability of

App. 8
evidence in a particular technical or scientific field.”
McLemore, 863 So. 2d at 40.
¶14. Rather than becoming the gatekeeper, our function is to determine whether the actual gatekeeper, the
trial judge, has abused his discretion in performing
that role in a particular case. Inv’r Res. Servs., Inc.
v. Cato, 15 So. 3d 412, 416 (Miss. 2009). In this case,
we conclude that the trial judge properly performed his
role as gatekeeper by admitting Dr. Lakin’s testimony.
The fact that separate members of this Court might
come to a different conclusion than the trial judge is of
no matter under the applicable standard of review.
¶15. Mississippi Rule of Evidence 702 sets forth the
analysis for admitting expert testimony. The rule
states:
A witness who is qualified as an expert by
knowledge, skill, experience, training, or education may testify in the form of an opinion or otherwise if:
(a) the expert’s scientific, technical, or other
specialized knowledge will help the trier of
fact to understand the evidence or to determine a fact in issue;
(b) the testimony is based on sufficient facts
or data;
(c) the testimony is the product of reliable
principles and methods; and

App. 9
(d) the expert has reliably applied
the principles and methods to the
facts of the case.
MRE 702.2
¶16. “Under Mississippi Rule of Evidence 702, expert
testimony should be admitted only when the trial court
can affirmatively answer a two-fold inquiry.” Kan.
City S. Ry. v. Johnson, 798 So. 2d 374, 382 (Miss.
2001), superseded by rule as stated in McLemore, 863
So. 2d 31. The first prong mandates that a witness
must be qualified by virtue of his or her knowledge,
skill, experience, or education. Id. (citing MRE 702).
Second, “the witness’s scientific, technical, or other specialized knowledge must assist the trier of fact to understand or decide a fact in issue.” Id. (citing MRE
702). Put simply, the expert’s proposed testimony must
be both relevant to the case at hand and based on reliable methodology. This standard is generally known as
the Daubert standard. See McLemore, 863 So. 2d at
35 (adopting the federal standard for admissibility of
expert witness testimony articulated in Daubert, 509
U.S. at 592-594, 113 S.Ct. 2786, for Mississippi courts).
¶17. In amending Rule 702 in 2003, this Court recognized that trial courts are vested with a gatekeeping
responsibility to determine whether the expert testimony presented is both relevant and reliable. MRE 702
advisory committee note. It is the task of the trial court
to make a “preliminary assessment of whether the
2

Mississippi Rule of Evidence 702 is identical to Rule 702 of
the Federal Rules of Evidence.

App. 10
reasoning or methodology underlying the testimony is
scientifically valid and of whether the reasoning or
methodology properly can be applied to the facts in issue.” Daubert, 509 U.S. at 592-93, 113 S.Ct. 2786.
¶18. In applying the Daubert standard, we must
first determine whether Dr. Lakin’s expert testimony
was relevant to the case at hand. The Mississippi Rules
of Evidence define evidence as relevant if “(a) it has
any tendency to make a fact more or less probable than
it would be without the evidence; and (b) the fact is of
consequence in determining the case.” MRE 401. “[T]he
threshold for admissibility of relevant evidence is not
great. Evidence is relevant if it has any tendency to
prove a consequential fact.” McLemore, 863 So. 2d at
40 (internal quotation marks omitted) (quoting Whitten v. Cox, 799 So. 2d 1, 15 (Miss. 2000)).
¶19. We find that Dr. Lakin’s opinion as to the cause
of Kyllie’s death was relevant and satisfies the first
prong of the Daubert standard. It was the second
prong of the Daubert standard that concerned the
Court of Appeals. After careful review, however, this
Court concludes that this prong, too, was satisfied.
¶20. First, the Court of Appeals found fault with the
specific wording used by the trial judge to show that
Dr. Lakin’s testimony was reliable. Clark, 2019 WL
5566234, at *9-10. The trial judge found, in part, that
“she is qualified to testify.” This statement was construed by the Court of Appeals to mean that no consideration was given to relevance or reliability. See id.
But magic words are not required under the Daubert

App. 11
standard or elsewhere. Jones v. State, 920 So. 2d 465,
476 (Miss. 2006) (“magic words” not necessary in the
context of Rule 403). The trial judge clearly found the
testimony admissible both by acknowledging the availability to the defense of cross-examination and by, of
course, allowing the testimony in the trial. The judge’s
duty is to perform the gatekeeper function and to leave
for us a record sufficient to allow us to determine that
the function was performed and supported by the record submitted. We have before us the record, and it is
sufficient for us to determine whether the trial judge
abused his discretion. The fact that the judge lumped
the Daubert finding under the phrase “qualified to
testify” is of no importance here because it is clear that
the judge considered not only Dr. Lakin’s qualifications
but also the relevance and reliability of her expert testimony concerning SBS/AHT. The record clearly shows
that the trial judge had the issues regarding the actual
SBS/AHT testimony squarely before it when it determined Dr. Lakin to be “qualified to testify.”
¶21. Second, the Court of Appeals relied on the fact
that Dr. Lakin lacked recall of certain literature supporting her theories and conceded articles in opposition to her testimony. Clark, 2019 WL 5566234, at *89. Of course, failing to recall certain articles in a scientific field cannot be uncommon and opposition articles
in a contentious field are to be expected. This is what
cross-examination of an expert witness is all about.
An appellate court that deems concessions on crossexamination to be disqualifying not only thrusts that
court squarely into the role of gatekeeper, but it also

App. 12
threatens to establish an expert-witness threshold so
high that it borders on perfection.
¶22. Dr. Lakin was required to provide evidence of
support and acceptance in the scientific community.
Patterson v. Tibbs, 60 So. 3d 742, 751 (Miss. 2011).
She did so by citing the American Academy of Pediatrics (AAP) as well as its Canadian counterpart and
supporting evidence from the Centers for Disease
Control. Specifically, Dr. Lakin testified that she was
member of the AAP. Further, when asked if the AAP
recognizes and accepts SBS/AHT, not only did Dr.
Lakin respond affirmatively, but she went on to testify
that SBS/AHT is accepted “by a number of other medical governing organizations” including the Centers for
Disease Control which, according to Dr. Lakin, “funds
research in abusive head trauma.” She further testified
that numerous peer-reviewed articles across different
disciplines supported SBS/AHT.
¶23. The Court of Appeals also compared testimony
of the expert witness for the defense to that of Dr.
Lakin. Clark, 2019 WL 5566234, at *5. While this
Court might consider opposing testimonies in an evaluation of the weight or sufficiency of the evidence, we
have no place comparing the two in determining the
admissibility of one of their opinions. That one party’s
expert witness contradicts the testimony of the other
party’s expert witness should come as no surprise. We
even have a name for it. We call it a “battle of the experts.” Hill v. Mills, 26 So. 3d 322, 330 (Miss. 2010).
The fact the Court of Appeals may itself deem the expert testimony from the defense as better than that of

App. 13
Dr. Lakin’s testimony is irrelevant to the admissibility
of Dr. Lakin’s testimony. See Gen. Motors Corp. v.
Pegues, 738 So. 2d 746, 753 (Miss. Ct. App. 1998)
(“When the evidence is conflicting, we defer to the
jury’s determination of the credibility of witnesses and
the weight of their testimony.” (internal quotation
marks omitted) (quoting Ducker v. Moore, 680 So. 2d
808, 811 (Miss. 1996))). This Court has held that the
winner in a battle of experts is to decided by a jury.
Hill, 26 So. 3d at 322; see, e.g, Bickham v. Grant, 861
So. 2d 299, 307 (Miss. 2003).
¶24. This brings us to the real problem in this case:
it is not so much the testimony of Dr. Lakin as it is the
fact that the SBS/AHT diagnosis has been increasingly
questioned in recent years. The Court of Appeals recognized this difficulty in its decision as did the trial
judge, who stated that he was not “insensitive to the
fact that there may be difficulty or some difference of
opinion about that which is called SBS.” If we wish to
take it upon ourselves to determine that some theory
has been debunked, that is certainly within our power
if appropriately supported by the science. But we must
continue to remember that we are jurists, not scientists. Judges are increasingly asked to make scientific
determinations based on contradictory science despite
not being qualified to do so. Science by nature is seldom
certain, and thus the validation of a proposed submission need not be universally accepted. Daubert, 509
U.S. at 590, 113 S.Ct. 2786. The fact that experts hold

App. 14
opposite views does not make the testimony inadmissible.3
II.

Remaining Issues on Appeal

¶25. Clark raises six additional arguments not addressed by the Court of Appeals.4 Since we are reinstating the trial court’s judgment and affirming Clark’s
conviction, we address each remaining issue in turn
below.

3

We acknowledge the academic debates surrounding SBS/
AHT. See AK Choudhary et al., Consensus Statement on Abusive
Head Trauma in Infants and Young Children, 48 Pediatric Radiology 1048 (2018); Joëlle A. Moreno & Brian Holmgren, Dissent
Into Confusion: The Supreme Court, Denialism, and the False
“Scientific” Controversy Over Shaken Baby Syndrome, 2013 Utah
L. Rev. 153; but see Randy Papetti et al., Outside the Echo Chamber: A Response to the “Consensus Statement on Abusive Head
Trauma in Infants and Young Children”, 59 Santa Clara L. Rev.
299 (2019). As we make this acknowledgment, however, we recognize that the centerpiece of this case is expert witness testimony,
and it is ultimately the “responsibility of the jury and not the appellate court to draw conclusions based on the evidence presented
at trial. A reviewing court ‘may set aside the jury’s verdict on the
ground of insufficient evidence only if no rational trier of fact
could have agreed with the jury.’ ” Moreno & Holmgren, at 209
(emphasis added) (quoting Cavazos v. Smith, 565 U.S. 1, 2, 132
S. Ct. 2, 181 L.Ed. 2d 311 (2011)).
4
The issues provided in subheadings A through F are
slightly modified for clarity from Clark’s “Corrected Brief of
Appellant.”

App. 15
A. Whether the evidence at trial was
insufficient to establish guilt beyond a
reasonable doubt and to the exclusion of
every reasonable hypothesis of innocence.
¶26. In his first remaining argument on appeal,
Clark argues that the evidence presented at trial was
insufficient to establish guilt beyond a reasonable
doubt and to the exclusion of every reasonable hypothesis of innocence. Clark points to Weathersby v. State,
165 Miss. 207, 147 So. 481, 482 (1933), arguing that
since no substantial evidence to contradict Clark’s version of events was presented at trial, the trial court
was required to enter a directed verdict. Clark qualifies his argument that the evidence presented in this
case requires a review of Weathersby: “[a]bsent the
opinion testimony of the expert witness, the conviction must be evaluated in light of the Weathersby
rule. . . .”
¶27. A review of the record and Clark’s motions for
directed verdict reveals that while Clark made a similar argument before the trial court, he failed to specifically raise an argument regarding Weathersby. Since
Clark failed to raise the Weathersby rule as a defense
before the circuit court, the issue is procedurally
barred on appeal. Jones v. State, 154 So. 3d 872, 877
(Miss. 2014) (citing Page v. State, 64 So. 3d 482, 489
(Miss. 2011)). Procedural bar notwithstanding, we find
Clark’s Weathersby argument to be without merit.

App. 16
¶28.

In Weathersby, we recognized a rule
in this state that where the defendant or the
defendant’s witnesses are the only eyewitnesses to the homicide, their version, if reasonable, must be accepted as true, unless
substantially contradicted in material particulars by a credible witness or witnesses for
the state, or by the physical facts or by the
facts of common knowledge.

Weathersby, 147 So. at 482 (citing Houston v. State,
117 Miss. 311, 78 So. 182 (1918)). Indeed, “[w]here the
Weathersby rule applies and the defendant’s version
affords an absolute legal defense, the defendant is entitled to a directed verdict of acquittal.” Green v.
State, 631 So. 2d 167, 174 (citing Blanks v. State, 547
So. 2d 29, 33 (Miss. 1989)). Additionally, “Weathersby
does not require the State to offer evidence excluding
the defendant’s theory from the realm of possibility; rather, the State must offer evidence that substantially
contradicts the material particulars of the defendant’s
version of the incident.” Booker v. State, 64 So. 3d 965,
974 (Miss. 2011) (citing Weathersby, 147 So. at 482).
¶29. In Booker, we looked to expert witness testimony to determine whether a defendant’s version of
events were unlikely. Id. at 975. In that case, a
pathologist expert witness testified that while the
defendant’s version of events were possible, the same
version of events were “very unlikely” based on the expert’s assessment of statistical probabilities associated
with the expert’s observations. Id. We opined, “this expert testimony, admissible under our rules of evidence,

App. 17
substantially contradicted Booker’s version of the incident and created a question for the jury to resolve.” Id.
at 975-76 (footnote omitted).
¶30. Here, as in Booker, Clark’s alternative causes
for Kyllie’s death were substantially contradicted by
the expert witness testimony of Dr. Lakin. As discussed
above, Dr. Lakin testified that “in [her] opinion, that
combination of findings with a lack of significant history would, in [her] opinion, be consistent with abusive
head trauma or nonaccidental trauma.” We have already upheld the circuit court’s determination under
Daubert that Dr. Lakin’s testimony was admissible.
Her testimony contradicts Clark’s alternative theories
of Kyllie’s injuries such that a question was created for
the jury to resolve. See Booker, 64 So. 3d at 975-76.
Indeed, Clark’s own Weathersby argument is qualified
by the condition that Dr. Lakin’s testimony was admitted erroneously—an argument that we have already
rejected. Therefore, Clark’s Weathersby argument is
without merit.
¶31. In furtherance of his broader argument, Clark
points to testimony which, in his opinion, shows that
insufficient evidence was presented to support the
jury’s guilty verdict. Clark points to conflicting evidence presented to the jury that indicated, among
other things, that Kyllie was dropped on two occasions
prior to the time Clark was alleged to have committed
the crime. He additionally discusses dueling expert
witness testimony from Dr. Shuman and Dr. Lakin regarding potential and probable causes of Kyllie Clark’s
injuries and subsequent death, including testimony

App. 18
calling into question the State’s timeline of events.
Further, Clark argues that testimony presented fails
to negate other reasonable hypotheses as to the cause
of Kyllie’s death: that Kyllie was either injured at
birth, through a fall, by being dropped days before
Clark had exclusive custody of Kyllie or that Sudden
Infant Death Syndrome (SIDS) occurred.5

5

On January 26, 2021, we received Clark’s letter pursuant
to Mississippi Rule of Appellate Procedure 28(k). M.R.A.P. 28(k).
In the letter, in addition to highlighting recent literature regarding AHT, Clark argues that our recent decision in Hampton v.
State, No. 2019-KA-01304-SCT, 309 So. 3d 1055, 1057-58 (Miss.
Jan. 21, 2021), supports his argument that the State failed to
prove that Clark was guilty beyond a reasonable doubt and to the
exclusion of every reasonable hypothesis consistent with innocence. See, e.g., Steele v. State, 544 So. 2d 802, 808 (Miss. 1989)
(citing Leflore v. State, 535 So. 2d 68, 70 (Miss. 1988)). We disagree. In Hampton, we reversed Hampton’s conviction for felony
child abuse where “Dr. Lakin testified only to the severity of the
burns and that the burns appeared to be more than a few days
old.” Hampton, 309 So. 3d at 1067. Additionally, Dr. Lakin “only
went so far as to state that in her professional opinion, a caregiver
aware of such burns would seek medical care for the burns.” Id.
These statements constituted Dr. Lakin’s sole testimony regarding the victim’s burn injury. Id. Therefore, we held that “[e]ven
though one could reasonably conclude from the evidence presented that Hampton knew about LRJ’s injury and failed to seek
necessary medical care for it, one cannot infer from this same evidence that because Hampton did not seek medical care for LRJ
she must have knowingly or recklessly caused the injury.” Id. at
1067 (footnote omitted). Since the State failed to prove Hampton’s
guilt beyond a reasonable doubt to the exclusion of every reasonable hypothesis consistent with innocence, the State’s burden was
not met. See id. In contrast, we affirmed Hampton’s conviction for
felonious starvation under the same standard where “Dr. Lakin
provided evidence that excluded the possibility that LRJ’s malnourished state was the result of some sort of medical condition

App. 19

. . . [a]nd she and other witnesses provided evidence that his malnourishment continued while in Hampton’s care.” Id. at 1067.
Dr. Lakin’s testimony in Clark’s case is more similar to that
provided in Hampton for the felonious starvation charge. For example, Clark asserts that the State failed to exclude the reasonable, non-criminal hypotheses advanced by Clark for Kyllie’s death
including SIDS, an accidental dropping, that Kyllie was stepped
on and CPR performed on Kyllie. In support, Clark points to various portions of testimony regarding both the occurrence of potential non-criminal, accidental causes of Kyllie’s injuries and
testimony from Dr. Lakin admitting either that the same causes
were either possible or could not be ruled out. In isolation, Clark’s
argument about Hampton could work. Clark, however, ignores
Dr. Lakin’s testimony that does exclude these alternative theories.
Specifically, after the State asked Dr. Lakin for an approximation of the time Kyllie sustained her injuries to a medical certainty, Dr. Lakin responded, “[b]ased on the history that was
given to me, it would have to be sometime between her most recent normal activity, it would be sometime after her most recent
normal activity to the time when she was found unconscious. And
so in my experience, the symptoms are immediate.” The State
then asked, “[a]nd the last time of normal activity, as given to you
in the history, was?” Dr. Lakin responded, “5:00 when she ate.”
Therefore, contrary to Clark’s argument, the State did prove
Clark’s guilt beyond a reasonable doubt to the exclusion of hypotheses consistent with innocence that rely on the fact that
Kyllie’s injuries occurred prior to the period where Clark had sole
custody of Kyllie. When questioned about the elimination of SIDS
as a cause of Kyllie’s death on cross-examination, Dr. Lakin provided that “[t]his child had multiple abnormal physical findings—
the subdural hemorrhage, the rib fractures, the retinal—multilayer retinal hemorrhages. You can’t even entertain the possibility of sudden infant death syndrome because there are so many
abnormalities.” Thus, the State did prove Clark’s guilt to the exclusion of SIDS as a possibility for Kyllie’s death.
Further, Dr. Lakin testified as her conclusion as to Kyllie’s
death: “[w]ell, the injuries that the patient did sustain were consistent with abusive head trauma, so it’s a nonaccidental mechanism which involves some type of very severe acceleration and

App. 20
¶32. When the evidence is viewed in the light most
favorable to the State, it is clear that a rational trier of
fact could have found the essential elements of depraved-heart murder beyond a reasonable doubt. See
Sanford, 247 So. 3d at 1244. The elements of depraved-heart murder are as follows: “[t]he killing of a
human being without the authority of law by any
means or in any manner . . . [w]hen done in the commission of an act eminently dangerous to others and
evincing a depraved heart, regardless of human life,
although without any premeditated design to effect the
death of any particular individual[.]” Montgomery v.
State, 253 So. 3d 305, 316 (Miss. 2018) (alterations in
original) (internal quotation marks omitted) (quoting
Miss. Code Ann. § 97-3-19(1)(b) (Rev. 2014)).
¶33. First, there was evidence that Kyllie Clark was
killed. Second, the cause of Kyllie’s injuries and resulting death, in Dr. Lakin’s opinion, supported a finding
that her cause of death was the result of acts imminently dangerous and evincing a depraved heart. See
id. To that end, Dr. Lakin testified extensively that
Kyllie’s condition was consistent, in her opinion, with
deceleration which very much could have been a shaking—a
severe shaking episode.” Finally, Dr. Lakin testified that “[i]n
my opinion, the injuries that killed Kyllie was [sic] a severe
acceleration/deceleration injury, which is consistent with shaking, and it is consistent with abusive head trauma. And that is
my opinion.” Given Dr. Lakin’s extensive testimony regarding the
cause of Kyllie’s injuries and death and her insistence that, based
on her medical opinion, Kyllie’s injuries and death were the result
of a nonaccidental event consistent with AHT, the State was able
to exclude Clark’s alternative theories consistent with innocence
and, therefore, Clark’s reliance on Hampton is misplaced.

App. 21
AHT or nonaccidental trauma. Moreover, Dr. Lakin
testified that injuries consistent with those sustained
by Kyllie are possibly caused by the mechanism of
“very rapid acceleration and deceleration, which include shaking as a possible mechanism.” Therefore,
despite conflicting testimony elicited at trial, when
viewed in the light most favorable to the State, we
find that a rational trier of fact could have found the
essential elements of depraved-heart murder beyond
a reasonable doubt. Thus, Clark’s argument that insufficient evidence was presented to support the jury’s
finding that he was guilty beyond is without merit.
B. Whether, under Johnson v. United States,
576 U.S. 591, 135 S. Ct. 2551, 192 L.Ed.2d 569
(2015), both Mississippi Code Sections 97-3-19(2)(f )
and 97-5-39(2)(c) are unconstitutionally vague.
¶34. Clark argues that sections 97-3-19(2)(f ) and 975-39(2)(c) of the Mississippi Code are unconstitutionally vague. Section 97-3-19(2)(f ) provides that
(2) The killing of a human being without the authority of law by any means or in any manner
shall be capital murder in the following cases:
....
(f ) When done with or without any design to effect death, by any person engaged in the commission of the crime of felonious abuse and/or battery
of a child in violation of subsection (2) of Section
97-5-39, or in any attempt to a commit such felony[.]

App. 22
Miss. Code Ann. § 97-3-19(2)(f ) (Rev. 2014). Section 975-39(2)(c) provides the following:
(2) Any person shall be guilty of felonious child
abuse in the following circumstances:
....
(c) If serious bodily harm to any child actually occurs, and if the person shall intentionally, knowingly, or recklessly:
(i)
(ii)

Strike any child on the face or head;
Disfigure or scar any child;

(iii) Whip, strike, or otherwise abuse
any child[.]
Miss. Code Ann. § 97-5-39(2)(c) (Rev. 2014).
¶35. Clark specifically takes issue with section 975-39(2)(c)(iii) and its so-called “catch-all” language,
“otherwise abuse any child.” Clark contends that the
United States Supreme Court, in Johnson v. United
States, 576 U.S. 591, 135 S. Ct. 2551, 192 L.Ed.2d 569,
L.Ed. 2d 569 (2015), held a provision similar to Section
97-5-39(2)(c)(iii) unconstitutionally vague. In Johnson, the Court examined 18 U.S.C. § 924(e)(2)(B), the
statute defining a “violent felony” under the Armed Career Criminal Act of 1984 as, among other things, “any
felony that ‘involves conduct that presents a serious
potential risk of physical injury to another.’ ” See id. at
593, 135 S. Ct. 2551 (internal quotation marks omitted) (quoting 18 U.S.C. § 924(e)(2)(B)). This “residual
clause” was applied to a Minnesota offense of “unlawful

App. 23
possession of a short-barreled shotgun.” Id. at 594, 135
S. Ct. 2551.
¶36. The Johnson Court noted two features that left
the residual clause at issue unconstitutionally vague:
(1) the clause “leaves grave uncertainty about how to
estimate the risk posed by a crime” and “ties the judicial assessment of risk to a judicially imagined ‘ordinary case’ of a crime, not to real-world facts or
statutory elements” and (2) the “clause leaves uncertainty about how much risk it takes for a crime to qualify as a violent felony.” Id. at 597-98, 135 S. Ct. 2551.
In “combining indeterminacy about how to measure
the risk posed by a crime with indeterminacy about
how much risk it takes for the crime to qualify as a
violent felony,” the Court held that “the residual clause
produces more unpredictability and arbitrariness than
the Due Process Clause tolerates.” Id. at 598, 135 S. Ct.
2551.
¶37. Johnson is distinguishable here. We have recognized that “[a] criminal statute must provide a person of ordinary intelligence a reasonable opportunity
to know what conduct is prohibited.” Faraga v. State,
514 So. 2d 295, 303 (Miss. 1987) (citing Cumbest v.
State, 456 So. 2d 209 (Miss. 1984)). In Rubenstein
v. State, 941 So. 2d 735, 772 (Miss. 2006) (quoting
Faraga, 514 So. 2d at 303), we held that Mississippi
Code Section 97-5-39(2)(a) was not unconstitutionally
vague, reasoning that Section 97-5-39(a) afforded “ ‘a
person of ordinary intelligence a reasonable opportunity to know what conduct is prohibited.’ ” The subsection at issue in Rubenstein read as follows:

App. 24
Any person who shall intentionally (I) burn
any child, (ii) torture any child or, (iii) except
in self-defense or in order to prevent bodily
harm to a third party, whip, strike or otherwise abuse or mutilate any child in such a
manner as to cause serious bodily harm, shall
be guilty of felonious abuse of a child. . . .
Id. (alteration in original) (quoting Miss. Code Ann.
§ 97-5-39(2)(a)). While the Rubenstein Court was only
concerned with Section 97-5-39(2)(a) and did not analyze section 97-5-39(2)(c)(iii), we now hold that Section
97-5-39(2)(c)(iii), which contains the same “otherwise
abuse” language as Section 97-5-39(2)(a), is also not
unconstitutionally vague. The language in Section 975-39(2)(a) connects both the action “otherwise abuse”
with “in such a manner as to cause serious bodily
harm. . . .” Id. Likewise, the language in Section 97-539(2)(c)(iii) requires “serious bodily harm to any child”
to occur and that the defendant “intentionally, knowingly or recklessly . . . otherwise abuse any child[.]”
¶38. Section 97-5-39(f ) defines “serious bodily harm”
for the purposes of section 97-5-39(2) as
any serious bodily injury to a child and includes, but is not limited to, the fracture of a
bone, permanent disfigurement, permanent
scarring, or any internal bleeding or internal
trauma to any organ, any brain damage, any
injury to the eye or ear of a child or other vital
organ, and impairment of any bodily function.
Miss. Code Ann. § 97-5-39(f ) (Rev. 2014) (internal quotation marks omitted). Paragraph (g) further clarifies

App. 25
that nothing in paragraph (c) “shall preclude a parent
or guardian from disciplining a child of that parent or
guardian, or shall preclude a person in loco parentis to
a child form disciplining that child. . . .” Miss. Code
Ann. § 97-5-39(2)(g) (Rev. 2014).
¶39. Pointing to examples such as spanking, Clark
asserts that ordinary people will differ on what actions
constitute abuse of a child. We disagree. When viewed
together, the element of serious bodily harm in Section
97-5-39(2)(c)(iii), along with the clarification in Section
97-5-39(2)(g) that discipline of a child is not precluded
under paragraph (c), negates any concern that ordinary people would differ with regard to what actions
constitute abuse of a child. In other words, we are
unpersuaded that “a person of ordinary intelligence”
would lack “a reasonable opportunity to know what
conduct is prohibited” when section 97-5-39(2)(c)(iii)
requires serious bodily harm and section 97-5-39(2)(g)
carves out acts of discipline from the same offense.
Faraga, 514 So. 2d at 303 (citing Cumbest, 456 So. 2d
209); c.f. Wolfe v. State, 743 So. 2d 380, 385 (Miss.
1999) (“As long as the discipline is moderate and reasonable in light of the age and condition of the child,
and other surrounding circumstances, the parent or
custodian will not incur criminal liability [for felony
child abuse].”).Thus, we find Clark’s second additional
assignment of error without merit.

App. 26
C. Whether the circuit court erroneously instructed
the jury on the lesser nonincluded offense of
depraved-heart murder when Clark did not
request such an instruction and whether, as a
result, the circuit court violated Clark’s rights per
the Sixth and Fourteenth Amendment and
Mississippi Constitution article 3, section 26.
¶40. Again, Clark was convicted of depraved-heart
murder under Mississippi Code Section 97-3-19(1)(b).
Count I of Clark’s indictment reads, in pertinent part:
That [Joshua Eric Hawk Clark] . . . in said
County and State between the 25th day of October, A.D., 2007 and the 6th day of January,
2008, did wilfully, unlawfully and feloniously
with or without malice aforethought or deliberate design kill and murder Kiley Clark, a
human being, having a date of birth of September 15, 2007, by violently shaking the
child, causing rib fractures and other internal
injuries resulting in the death of Kiley [sic]
Clark, while he the said [Joshua Eric Hawk
Clark] was engaged in the crime of Felony
Child Abuse, all in violation of Mississippi
Code, Annotated, Sections 97-3-19(2)(f ) and
97-5-39(2)(a)[.]
¶41. Section 97-3-19(2) is Mississippi’s capital murder statute. See Miss. Code Ann. § 97-3-19(2) (Rev.
2014). Clark argues that Count I failed to allege that
Clark acted with a depraved heart and that the indictment instead implies that whether Clark acted with a
depraved heart is irrelevant. Section 97-3-19(1)(b) provides that

App. 27
(1) The killing of a human being without the authority of law by any means or in any manner
shall be murder in the following cases:
....
(b) When done in the commission of an act eminently dangerous to others and evincing a depraved heart, regardless of human life, although
without any premeditated design to effect the
death of any particular individual, shall be seconddegree murder[.]
Miss. Code Ann. § 97-3-19(1)(b) (Rev. 2014).
¶42. According to Clark, his rights under the Sixth
and Fourteenth Amendments, as well as article 3, section 26, of the Mississippi Constitution, were violated since the jury was allowed to convict him via a
depraved-heart-murder theory when he was not afforded notice of the nature and cause of the State’s
accusation. Further, citing Gause v. State, 65 So. 3d
295, 300 (Miss. 2011), abrogated on other grounds by
Hall v. State, 127 So. 3d 202, 207 (Miss. 2013), Clark
argues that a lesser, non included offense may not be
given as an instruction absent a request for the same
from the defendant. Finally, pointing to Johnson v.
State, 52 So. 3d 384, 397 (Miss. Ct. App. 2009), Clark
argues that no evidence of malice, wanton recklessness
or depraved heart was presented. In response, citing
Wheeler v. State, 536 So. 2d 1341, 1344 (Miss. 1988),
the State argues that Section 97-3-19 “implicitly recognizes the established doctrine that simple murder is a
lesser included offense of capital murder.”

App. 28
¶43. Clark’s reliance on Gause and Johnson is misplaced. In Gause, we held that “burglary is not a
lesser-included offense of capital murder, and because
the State was not entitled to a lesser-offense instruction[,]” the “trial court clearly erred by granting the
State’s request for an instruction on burglary[.]”
Gause, 65 So. 3d at 302. In Johnson, the Court of
Appeals, recognizing that “manslaughter is a lesser offense of murder[,]” determined that there was insufficient evidence to support Johnson’s conviction for
depraved-heart murder. Gause, 65 So. 3d at 397 (citing
McCune v. State, 989 So. 2d 310, 316 n.13 (Miss.
2008)).
¶44. We have held that “[a]s a matter of common
sense, every murder done with deliberate design to effect the death of another human being is by definition
done in the commission of an act imminently dangerous to others and evincing a depraved heart, regardless of human life.” Schuck v. State, 865 So. 2d
1111, 1119 (Miss. 2003), disagreed with by Dilworth
v. State, 909 So. 2d 731, 735 n.4 (Miss. 2005)6; see
Mallett v. State, 606 So. 2d 1092, 1095 (Miss. 1992)
(“[E]very murder done with deliberate design to effect
the death of another human being is by definition done
in the commission of an act imminently dangerous to
others and evincing a depraved heart, regardless of
6

In Dilworth, we disagreed with Schuck and other precedent regarding “standard of review for sufficiency and weight of
the evidence”—positions that “we retreated from” in Bush v.
State, 895 So. 2d 836, 844 n.3 (Miss. 2005), abrogated on other
grounds by Little v. State, 233 So. 3d 288, 292 (Miss. 2017). Dilworth, 909 So. 2d at 735 n.4.

App. 29
human life.”); see also White v. State, 964 So. 2d 1181,
1187 (Miss. Ct. App. 2007) (“Although the statutory
language defining depraved heart murder does not
clearly state the requirement for deliberate design or
malice aforethought, depraved heart murder involves
an act so reckless that malice or deliberate design is
implied.” (internal quotation marks omitted) (quoting
Chatman v. State, 952 So. 2d 945, 948 (Miss. Ct. App.
2006))). Therefore, we find Clark’s argument—that depraved-heart murder is a lesser, rather than a lesserincluded, offense of capital murder—is without merit
and that the circuit court did not err by providing a
depraved-heart-murder instruction.
¶45. As to Clark’s argument that he did not receive
notice of a criminal charge for depraved-heart murder,
Mississippi Code Section 97-3-19(3) provides that “[a]n
indictment for murder or capital murder shall serve as
notice to the defendant that the indictment may include any and all lesser included offenses thereof, including, but not limited to, manslaughter.” Miss. Code
Ann. § 97-3-19(3) (Rev. 2014). Count I of Clark’s indictment alleging that he “did wilfully, unlawfully
and feloniously with or without malice aforethought or
deliberate design kill and murder Kiley [sic] Clark”7
while engaged in the crime of felony child abuse clearly
served as notice under Mississippi Code Section 97-319(3) that his indictment would include any and all
7

See Hawkins v. State, 101 So. 3d 638, 642 (Miss. 2012),
(general discussion about how “depraved heart murder ‘subsumes’ deliberate design murder. . . .” (quoting Ruttley v. State,
746 So. 2d 872, 879 (Miss. Ct. App. 1998))).

App. 30
lesser-included offenses, including depraved-heart
murder. Therefore, we find Clark’s third additional assignment of error without merit.
D. Whether, by refusing to separate the trial into
a guilt phase and a penalty phase so that jurors
opposed to the death penalty could sit at the
guilt phase, the circuit court violated Clark’s
Sixth and Fourteenth Amendment rights to a
fair cross section of the community on the jury.
¶46. Clark further asserts that his Sixth and Fourteenth Amendment rights were violated when eight jurors that expressed opposition to the death penalty
were struck from the jury. Additionally, Clark argues
that by excluding otherwise qualified jurors that were
opposed to the death penalty, the State denied Clark a
fair and impartial jury and effectively benefitted from
extra peremptory challenges. Citing Mississippi Code
Section 99-19-101(3), Clark argues that killing through
child abuse cannot be considered an aggravating factor
since all persons convicted of capital murder through
child abuse are guilty of capital murder. See Miss. Code
Ann. § 99-19-101(3) (Rev. 2015) (“For the jury to impose
a sentence of death, it must unanimously find in writing the following: . . . (b) That sufficient aggravating
circumstances exist as enumerated in subsection (5) of
this section; and (c) That there are insufficient mitigating circumstances, as enumerated in subsection (6), to
outweigh the aggravating circumstances.”).
¶47. Specifically, Clark asserts that there were abundant mitigating factors and only one aggravating

App. 31
circumstance—that Kyllie was killed during the course
of child abuse. And according to Clark, the fact that
death occurred through child abuse does not narrow
the class of eligible persons for the death penalty. Thus,
Clark contends there was no need for a second jury
since no aggravating factors existed and the mitigating
factors were overwhelming. Clark cites two United
States Supreme Court cases for the proposition that,
notwithstanding the language of Mississippi Code Sections 99-19-101(3) and 99-19-101(5)(d), the fact that a
killing occurred during the commission of felonious
child abuse may not be constitutionally considered
since such a fact does not “narrow the class” of persons
eligible for the death penalty.
¶48. First, Clark points to McCleskey v. Kemp, 481
U.S. 279, 303-04, 107 S. Ct. 1756, 95 L.Ed. 2d 262
(1987) (footnote omitted) (citations omitted), in which
the Court held that “a State must ‘narrow the class of
murderers subject to capital punishment,’ . . . by providing ‘specific and detailed guidance’ to the sentencer.’ ”
Second, and in further support of his argument that
felonious child abuse may not constitutionally be used
as an aggravating factor, Clark cites Arave v. Creech,
507 U.S. 463, 474, 113 S. Ct. 1534, 1542, 123 L.Ed. 2d
188 (1993). There, the Court held that “a State’s capital sentencing scheme . . . must ‘genuinely narrow
the class of persons eligible for the death penalty.’ ” Id.
(quoting Zant v. Stephens, 462 U.S. 862, 877, 103
S. Ct. 2733, 2742, 77 L.Ed. 2d 235 (1983)). Further, the
Court recognized that “[w]hen the purpose of statutory
aggravating circumstance is to enable the sentencer to

App. 32
distinguish those who deserve capital punishment
from those who do not, the circumstance must provide
a principled basis for doing so.” Id. (citing Lewis v. Jeffers, 497 U.S. 764, 776, 110 S. Ct. 3092, 111 L.Ed. 2d
606 (1990)).
¶49. We have resolved this issue. In Galloway v.
State, 122 So. 3d 614, 680 (Miss. 2013) (citing Thorson
v. State, 895 So. 2d 85, 105 (Miss. 2004)), we recognized that “the felony-murder aggravator genuinely
narrows the class of defendants eligible for the death
penalty.” In doing so, we reasoned that “[n]ot every defendant eligible for the death penalty will have committed murder while in the course of sexual battery or
the other statutorily enumerated felonies.” Id. (emphasis added) (citing Miss. Code Ann. 97-3-19 (Rev. 2006));
see, e.g. Loden v. Epps, No. 1:10CV311-NBB, 2013 WL
5243670, at *49 (N.D. Miss. Sept. 18, 2013) (“The Mississippi statute narrows the class of capital defendants
who are eligible for the death penalty by its definition
of capital murder, see Miss. Code Ann. § 97-3-19(2), and
through the use of aggravating circumstances.” (citing
Miss. Code Ann. § 99-19-101)), aff ’d sub nom. Loden v.
McCarty, 778 F.3d 484 (5th Cir. 2015). Indeed, we recognized in Galloway the United States Supreme
Court’s stance on aggravating circumstances as they
relate to a sentencing phase. Galloway, 122 So. 3d at
680 (citing Lowenfield v. Phelps, 484 U.S. 231, 246,
108 S. Ct. 546, 98 L.Ed. 2d 568 (1988)).
¶50. In Lowenfield, the Court, while assessing Louisiana’s capital murder scheme, provided that “the fact
that the aggravating circumstance duplicated one of

App. 33
the elements of the crime does not make this sentence
constitutionally infirm.” Lowenfield, 484 U.S. at 246,
108 S.Ct. 546. Here, just as in Lowenfield, the Mississippi “scheme narrows the class of death-eligible murderers and then at the sentencing phase allows for the
consideration of mitigating circumstances and the exercise of discretion.” Id. “The Constitution requires no
more.” Id.
¶51. Additionally, Clark acknowledges that, under
Mississippi Code Section 99-19-101(5)(d), “felonious
abuse . . . of a child” is an aggravating factor for the
purposes of section 99-19-101(3) sufficient to justify a
jury’s imposition of the death penalty. Miss. Code Ann.
§ 99-19-101(3) (Supp. 2019). We have recognized that
“[f ]elonious child abuse is an underlying felony, as well
as an aggravator, in Mississippi’s capital-sentencing
scheme.” Moffett v. State, 156 So. 3d 835, 863 (Miss.
2014) (emphasis added) (citing Miss. Code Ann. §§ 993-19(2)(f ), 99-19-105(5)(d) (Rev. 2007)). Moreover, “evidence of an underlying crime can properly be used both
to elevate the crime to capital murder and as an aggravating circumstance.” Id. at 864 (internal quotation
mark omitted) (quoting Ross v. State, 954 So. 2d 968,
1014 (Miss. 2007)). And “[t]he United States Supreme
Court has held that the use of an underlying felony as
an aggravator is not a constitutional error.” Id. (citing
Tuilaepa v. California, 512 U.S. 967, 971-72, 114
S. Ct. 2630, 129 L.Ed. 2d 750 (1994)). Thus, Clark’s constitutional attack regarding felonious child abuse’s use
as both an aggravator in sentencing and an element to
elevate a homicide to capital murder is without merit.

App. 34
¶52. Next, citing Duren v. Missouri, 439 U.S. 357,
364, 99 S. Ct. 664, 58 L.Ed. 2d 579 (1979), Clark argues
that the exclusion of a distinctive group—here potential jurors who expressed opposition to the death penalty—in the community violates the fair-cross-section
requirement of the Sixth and Fourteenth Amendments. We have recognized that Duren provides the
test for a prima facie violation of the fair-cross-section
requirement of the Sixth Amendment. Yarbrough v.
State, 911 So. 2d 951, 954 (Miss. 2005). To succeed on
this assignment of error, Clark would need to show
(1) that the group alleged to be excluded is a
“distinctive” group in the community; (2) that
the representation of this group in venires
from which juries are selected is not fair and
reasonable in relation to the number of such
persons in the community; and (3) that this
underrepresentation is due to systematic exclusion of the group in the jury selection process.
Id. at 955 (citing Duren, 439 U.S. at 364, 99 S.Ct. 664).
¶53. We have previously addressed the veracity of
an argument similar to Clark’s argument here. In
Wilcher v. State, 863 So. 2d 719, 767 (Miss. 2003) (citations omitted) quoting Jordan v. State, 786 So. 2d
987, 1028-29 (Miss. 2001)), we reiterated that
a prospective juror’s views on the death penalty do not make one a member of a distinctive
class protected by Batson v. Kentucky, 476
U.S. 79, 106 S. Ct. 1712, 90 L.Ed. 2d 69 (1986),
and its progeny. . . . [E]xcusing all jurors who

App. 35
have conscientious scruples against the death
penalty does not deny a defendant his right to
a representative cross-section of the community.
(quoting Jordan v. State, 786 So.2d 987, 1028-29 (Miss.
2001)). In Wilcher, we also recognized that excluding
jurors who express an inability to impose the death
penalty does not equate to a fair-cross-section violation
since the same jurors do not “constitute a distinctive
group for fair cross section purposes.” Id. at 768 (quoting Buchanan v. Kentucky, 483 U.S. 402, 415, 107
S. Ct. 2906, 97 L.Ed. 2d 336 (1987)); Lockhart v. McCree, 476 U.S. 162, 177, 106 S. Ct. 1758, 1767, 90 L.Ed.
2d 137 (1986) (“[W]e conclude that ‘Witherspoonexcludables’ do not constitute a ‘distinctive group’ for
fair-cross-section purposes, and hold that ‘death qualification’ does not violate the fair-cross-section requirement.”8).
¶54. Thus, Clark has failed to establish that his Sixth
and Fourteenth Amendment rights to a fair cross section were violated by the exclusion of jurors opposed to
the death penalty since he is unable to show that jurors opposed to the death penalty constitute a “distinctive group” for fair-cross-section purposes. Since jurors
opposed to the death penalty do not constitute a “distinctive group,” we decline to address the remaining
8

“Witherspoon-excludables” are “those prospective jurors
who state[ ] that they could not under any circumstances vote for
the imposition of the death penalty. . . .” Lockhart, 476 U.S. at
162, 106 S.Ct. 1758 (citing Witherspoon v. Illinois, 391 U.S.
510, 88 S. Ct. 1770, 20 L.Ed. 2d 776 (1968)).

App. 36
two requirements for a fair-cross-section violation.
Therefore, Clark’s fourth additional assignment of error is without merit.
E. Whether the circuit court erred by excluding
relevant defense evidence and permitting
irrelevant prosecution evidence and whether
such errors denied Clark a fair trial in
violation of the Fourteenth Amendment.
¶55. Clark argues that the circuit court erred in
three evidentiary rulings with each error constituting
a denial of a fair trial and a violation of Clark’s Sixth
and Fourteenth Amendment rights. Each alleged error
is addressed in turn below.
i.

Whether the circuit court permitted irrelevant,
highly prejudicial evidence regarding
compensation of Clark’s expert witness, Dr. Shuman.
¶56. In closing argument, the State commented on
Clark’s failure to subpoena the doctor that performed
the autopsy on Kyllie Clark. Further, the State argued,
with respect to Clark’s expert witness, Dr. Shuman,
that “[t]hey had rather have a hired gun come in here
from Florida, you pay him $10,000, he’ll get up there
and tell you anything you want to hear. Dr. Lakin gets
paid nothing.” The State also commented on Dr. Shuman’s compensation with the following statement: “[i]f
you pay some expert $8500 to come up here for an
hour’s testimony, they’ll say it.”

App. 37
¶57. Clark argues that the circuit court permitted irrelevant, highly prejudicial evidence regarding compensation for Dr. Shuman’s expert testimony. The State
argues that any such abuse must cause prejudice and
harm and that Clark has failed to demonstrate the same
and that evidence of witness bias is admissible under
Mississippi Rule of Evidence 616 to attack credibility.
¶58. Rule 616 provides that “[e]vidence of a witness’s
bias, prejudice, or interest—for or against any party—
is admissible to attack the witness’s credibility.” MRE
616. And “[i]n general, evidence of an expert witness’s
possible financial economic bias is relevant and admissible.” Wright v. Turan-Foley Motors, Inc., 269 So.
3d 160, 168 (Miss. Ct. App. 2018). Thus, the trial court
did not err by allowing the State to discuss financial
compensation for Dr. Shuman’s testimony in closing arguments to show Dr. Shuman’s potential economically
motivated bias.
¶59. Clark argues in the alternative that any probative value in testimony concerning Dr. Shuman’s compensation was far outweighed by its prejudicial effect
and, therefore, was inadmissible under Rule 403 of the
Mississippi Rules of Evidence. Rule 403 provides that
The court may exclude relevant evidence if its
probative value is substantially outweighed
by a danger of one or more of the following:
unfair prejudice, confusing the issues, misleading the jury, undue delay, wasting time, or
needlessly presenting cumulative evidence.
MRE 403.

App. 38
¶60. “The trial court generally is allowed wide discretion concerning the admission of evidence offered to
suggest bias on the part of a witness against the defendant.” Ambrose v. State, 254 So. 3d 77, 100 (Miss.
2018) (citing Tillis v. State, 661 So. 2d 1139, 1142
(Miss. 1995)). Further, “[w]e will affirm the trial court’s
exercise of discretion unless the ruling resulted in prejudice to the accused.” Id. (internal quotation marks
omitted) (quoting Anthony v. State, 108 So. 3d 394,
397 (Miss. 2013)).
¶61. The Court of Appeals’ decision in Dao v. State,
984 So. 2d 352, 360-61 (Miss. Ct. App. 2007), is instructive. There, the trial judge did not say that he “found
the evidence more probative than prejudicial.” Id. at
361. Even so, the trial court in Dao “heard arguments
from both parties regarding the admissibility of the evidence prior to reaching the conclusion that it should
be admitted for the limited purpose of showing bias.”
Id. Likewise, we have recognized that a trial court may
implicitly weigh undue prejudice against probative
value even when a trial court does not use “magic
words” regarding the danger of unfair prejudice and
probative value of evidence but ultimately rules on admissibility after hearing arguments from both parties.
Hoops v. State, 681 So. 2d 521, 531 (Miss. 1996) (internal quotation marks omitted), abrogated on other
grounds by Willis v. State, 300 So. 3d 999, 1009 n. 2
(Miss. 2020).
¶62. Here, Clark filed a motion in limine, as well
as a renewed motion in limine, seeking to prohibit
questions regarding expert-witness compensation. The

App. 39
Court denied Clark’s motion in limine after hearing argument from Clark and the State on the issue. Additionally, and following the State’s inference during
closing argument of paying a “hired gun” $10,000 to
say “anything you want to hear[,]” Clark’s counsel objected: “[o]bjection. That statement is not support by
the evidence.” The State responded: “[t]his is argument
and all reasonable inferences.” It is clear from the record that the circuit court ruled on admissibility after
hearing argument from both parties not only following
the court’s ruling on Clark’s motion in limine but also
following Clark’s objection during the State’s closing
argument. We therefore find that the circuit court did
not err, because it implicitly weighed the probative
value of evidence regarding Dr. Shuman’s expert witness compensation and any undue prejudice that
would result from admission. Dao, 984 So. 2d at 361;
see Hoops, 681 So. 2d at 531.
ii.

Whether the trial court improperly
denied Clark the opportunity to
cross-examine Dr. Lakin to show bias.

¶63. Citing United States v. Mayer, 556 F.2d 245,
250 (5th Cir. 1977),9 Clark also argues that the trial
court improperly disallowed impeachment evidence of
Dr. Lakin in violation of his Sixth Amendment Confrontation Clause rights. Specifically, Clark attempted
9

In that case, the United States Court of Appeals for the
Fifth Circuit held that a trial judge frustrated Mayer’s full exercise of his Sixth Amendment rights by not allowing sufficient inquiry into the prosecution witness’ motivation to testify. Id.

App. 40
to elicit testimony regarding Dr. Lakin’s personal divorce and certain facts about Dr. Lakin’s child, including bed-wetting and appointment of a guardian ad
litem. According to Clark, this information would show
Dr. Lakin’s bias toward persons accused of child abuse.
Clark’s counsel, during cross-examination of Dr. Lakin,
specifically asked questions regarding the appointment of a guardian ad litem and a psychologist for her
two children. Following an objection from the State, the
court sent the jury out of the courtroom.
¶64. Outside of the presence of the jury, counsel for
Clark argued that the appointment of a guardian ad
litem following report of a bed-wetting issue with one
of her children showed that “[Dr. Lakin] has a personal
reason to bias her testimony in this case” “if she was
involved in that process[.]” The trial court responded:
You are attacking her—or at least revealing
things that has got not one thing to do with
this. The objection of the State will be sustained. You can make a proffer right now of
whatever. I don’t know. You’re not going to ask
her anymore questions. Just tell us what you
think she will say.
In response to the trial court’s invitation for a proffer,
Clark’s counsel requested the guardian ad litem order
be marked for identification, and it was marked Defendant’s Exhibit No. 7. Then, Clark’s counsel stated
that “[m]y presentation would be basically that this
would relate to her bias as opposed to medical that’s
outside the medical context.”

App. 41
¶65. The trial court concluded by discussing the
scope of permissible cross-examination:
The Court: Now, everything—everything about
the medical aspects of this, what she knows about
this case is fair game.
Mr. Webb:

Yes, sir.

The Court: Her qualifications and whatever. But
I know of nothing that suggests what you’re trying
to get at. You can ask her, if you’d like, if she’s biased, opinionated, prejudiced, or such thing in favor of child abuse Mr. Webb:

Well, Your Honor—

The Court:

—as a diagnosis.

While still outside the presence of the jury, Clark’s
counsel then asked Dr. Lakin if she was biased, to
which she responded, “[o]f course I’m not biased.”
¶66. “Defendants in criminal cases have a fundamental constitutional right to be confronted with the witnesses against them.” Hutto v. State, 227 So. 3d 963,
983 (Miss. 2017) (internal quotation marks omitted)
(quoting Armstead v. State, 196 So. 3d 913, 917 (Miss.
2016)). “And ‘[t]he right of a criminal defendant . . . to
cross examine witnesses against him is at the heart of
the [C]onfrontation [C]lause.’ ” Id. (alterations in original) (quoting Armstead, 196 So. 3d at 917). This right
of confrontation extends to the full cross-examination
of witnesses “on every material point relating to the
issue to be determined that would have a bearing on
the credibility of the witness and the weight and worth

App. 42
of his testimony.” Id. (internal quotation mark omitted) (quoting Scott v. State, 796 So. 2d 959, 964 (Miss.
2001)). Moreover, “Mississippi allows wide-open crossexamination of any matter that is relevant, including
the possible interest, bias, or prejudice of the witness.”
Anthony v. State, 108 So. 3d 394, 397 (Miss. 2013)
(emphasis added) (citing Meeks v. State, 604 So. 2d
748, 755 (Miss. 1992)).
¶67. But “[t]he trial court generally is allowed wide
discretion concerning the admission of evidence offered to suggest bias on the part of a witness against
the defendant.” Ambrose, 254 So. 3d at 100 (citing Tillis, 661 So. 2d at 1142). Further, “[w]e will affirm the
trial court’s exercise of discretion unless the ruling resulted in prejudice to the accused.” Id. (internal quotation marks omitted) (quoting Anthony, 108 So. 3d at
397). And
“[W]hile the [United States] Constitution
thus prohibits the exclusion of defense evidence under rules that serve no legitimate
purpose or that are disproportionate to the
ends that they are asserted to promote, wellestablished rules of evidence permit trial
judges to exclude evidence if its probative
value is outweighed by certain other factors
such as unfair prejudice, confusion of the issues, or potential to mislead the jury.”
Id. at 100-01 (quoting Holmes v. South Carolina,
547 U.S. 319, 326-27, 126 S. Ct. 1727, 164 L.Ed. 2d 503
(2006)).

App. 43
¶68. Further, “Rule 616 must be interpreted as it relates to other rules of evidence, particularly [Rules]
104, 401 and 402.” Id. at 101 (internal quotation marks
omitted) (quoting Tillis, 661 So. 2d at 1142). Rule 402
provides, in part, that “[i]rrelevant evidence is not admissible.” MRE 402. Rule 401 provides that “[e]vidence
is relevant if: (a) it has any tendency to make a fact
more or less probable than it would be without the evidence; and (b) the fact is of consequence in determining the case.” MRE 401. Once again, the circuit court,
after halting defense counsel’s questioning of Dr. Lakin
regarding her divorce, her child’s bed-wetting and appointment of a guardian ad litem for her child, stated
that “[y]ou are attacking her—or at least revealing
things that has got not one thing to do with this.”
¶69. While the circuit court did not perform an explicit Rule 401 relevancy test or a Rule 403 balancing
test, after reviewing the record we find that the circuit
court did not abuse its discretion by prohibiting Clark’s
counsel’s questioning on cross-examination regarding
Dr. Lakin’s personal divorce and matters related to her
children, as the same evidence was irrelevant per Rule
401 and, therefore, inadmissible under Rule 402. Indeed, the circuit court appears to analyze the relevancy
of Clark’s proffer: “[y]ou are . . . at least revealing
things that has got not one thing to do with this.” While
not using the specific language of Rule 401, we find
that the circuit court considered whether the evidence
regarding Dr. Lakin’s divorce and children had any
tendency to make a fact of consequence in Clark’s case

App. 44
more or less probable than they would have been without the same evidence. See MRE 401.
¶70. Furthermore, the circuit judge “was present
when the examination transpired and he was in the
best position to rule on its exclusion.” Wortham v.
State, 883 So. 2d 599, 607 (Miss. Ct. App. 2004). The
circuit court also allowed Clark to ask Dr. Lakin directly whether she was biased in favor of a child abuse
diagnosis. Dr. Lakin responded in the negative. We
therefore find that Clark was not prejudiced by the
circuit court’s exclusion of evidence concerning Dr.
Lakin’s personal experiences with divorce or matters
involving her children. Even if the circuit court abused
its discretion in excluding otherwise relevant evidence
that would have passed muster under a Rule 403 balancing test, Clark was still provided the opportunity to
elicit testimony from Dr. Lakin that specifically dealt
with any alleged bias in favor of child abuse diagnoses.
To warrant reversal, “the admission or exclusion of evidence must result in prejudice or harm. . . .” Ellis v.
State, 856 So. 2d 561, 565 (Miss. Ct. App. 2003) (quoting Jackson v. State, 594 So. 2d 20, 25 (Miss. 1992)).
Thus, we find this assignment of error to be without
merit.
iii. Whether the circuit court erroneously denied
Clark’s request to introduce evidence of Bethany
Clark’s drug-related felony conviction.
¶71. Clark additionally argues that the trial court
erred by disallowing testimony of Bethany Clark’s

App. 45
prior drug conviction in violation of Mississippi Rule of
Evidence 609(a). Outside the presence of the jury, the
trial court addressed the State’s motion in limine seeking to exclude evidence of Bethany Clark’s drug-related felony conviction. The trial court acknowledged
that the State attempted to exclude evidence of the
conviction for a non party witness, making note of Mississippi Rule of Evidence 609. The State then responded that the time between Kyllie Clark’s death
and Bethany Clark’s drug conviction made such evidence “absolutely collateral and irrelevant to the
facts. . . .”
¶72. After recognizing that “this is evidence intended
to attach the character, truthfulness, and so forth of the
witness by demonstrating she’s been convicted of a felony sometime after all of this took place and was
done[,]” the trial court, citing Rule 403, went on to determine that evidence of Bethany Clark’s conviction
“has little probative value.” Further, the court reasoned that “there will be adequate testimony to indicate [Bethany Clark’s] drug use . . . ” and decided to
exclude the conviction evidence.
¶73. Rule 609(a) provides, in pertinent part, the following:
(a) In General. The following rules apply to attacking a witness’s character for truthfulness by
evidence of a criminal conviction:
(1) for a crime that, in the convicting jurisdiction, was punishable by death or by imprisonment
for more than one year, the evidence:

App. 46
(A) must be admitted, subject to Rule 403, when
the witness is not a party;
MRE 609(a). And again, Rule 403 provides that
The court may exclude relevant evidence if its
probative value is substantially outweighed
by a danger of one or more of the following:
unfair prejudice, confusing the issues, misleading the jury, undue delay, wasting time, or
needlessly presenting cumulative evidence.
MRE 403.
¶74. While Bethany Clark is certainly a nonparty
and Clark attempted to introduce evidence of a felony
conviction to attack Bethany Clark’s character for
truthfulness, Clark overlooks the requirement for a
Rule 403 analysis contained in Rule 609(a)(1)(A). As
discussed above, the trial court performed a Rule 403
balancing test and determined that evidence of Bethany Clark’s subsequent conviction held little probative
value.
¶75. “[T]he standard of review regarding Rule 403
determinations is an “abuse of discretion.” ” Fitch v.
Valentine, 959 So. 2d 1012, 1022 (Miss. 2007) (alteration in original) (internal quotation mark omitted)
(quoting Baldwin v. State, 784 So. 2d 148, 160 (Miss.
2001)). Further, “[w]here a trial court determines that
potentially prejudicial evidence possesses sufficient
probative value, it is within that court’s sound discretion whether or not to admit the same, since [Rule] 403
does not mandate exclusion but rather provides that
the evidence may be excluded.” Jones v. State, 904 So.

App. 47
2d 149, 152 (citing Baldwin, 784 So. 2d at 156). And
“[t]he task of an appellate court in reviewing such a
determination is not to conduct its own de novo Rule
403 balancing, but simply [to] determine whether the
trial court abused its discretion in weighing the factors
and in admitting or excluding the evidence.” Id. (citing
Foster v. State, 508 So. 2d 1111, 1117-18 (Miss. 1987),
overruled on other grounds by Powell v. State, 806 So.
2d 1069, 1080 (Miss. 2001)).
¶76. We agree with the trial court’s analysis that, under Rule 403, evidence of Bethany Clark’s subsequent
drug conviction held little, if any, probative value. Further, even assuming that the trial court did abuse its
discretion by excluding evidence of Bethany Clark’s
felony drug conviction, we hold that any such error was
harmless. “[F]or a case to be reversed on the admission
or exclusion of evidence, it must result in prejudice and
harm or adversely affect a substantial right of a party.”
Hammons v. State, 918 So. 2d 62, 65 (alteration in
original) (internal quotation mark omitted) (quoting
Holladay v. Holladay, 776 So. 2d 662, 672 (Miss.
2000)). And “[e]rror is reversible only where it is of
such magnitude as to leave no doubt that the appellant
was unduly prejudiced.” Id. (internal quotation mark
omitted) (quoting Holladay, 776 So. 2d at 672). Moreover, “[t]he Constitution does not guarantee a perfect
trial, but it does entitle a defendant in a criminal case
to a fair trial.” Id. (citing Clark v. State, 891 So. 2d
136, 141 (Miss. 2004)). When a trial court improperly
restricts a defendant’s ability to impeach a witness,
certain factors may be examined to determine whether

App. 48
the error was harmless, including “the extent of crossexamination otherwise permitted. . . .” Id. (internal
quotation mark omitted) (quoting Delaware v. Van
Arsdall, 475 U.S. 673, 684, 106 S. Ct. 1431, 89 L.Ed.
2d 674 (1986)).
¶77. Here, testimony regarding Bethany Clark’s illegal drug use was presented to the jury. Indeed, after
excluding evidence of Bethany Clark’s conviction, the
trial judge stated that “I think it’s fair game for you to
inquire about what happened at or about the time of
this incident.” During cross-examination of Bethany
Clark by defense counsel, Bethany Clark admitted to
having “used street drugs” “[b]efore the pregnancy. . . .”
It is apparent that the extent of cross-examination permitted by the trial court renders any potential error
in excluding evidence of Bethany Clark’s conviction
harmless.
¶78. Indeed, “[h]armless error will result if the same
evidence improperly excluded comes in by another
means.” Holland v. State, 705 So. 2d 307, 344 (Miss.
1997) (citing Jackson v. State, 594 So. 2d 20, 25 (Miss.
1992)). Since evidence of Bethany Clark’s drug use
before and after Kyllie Clark’s death “[came] in by
another means, [any potential] exclusion error is rendered harmless.” Wilson v. State, 156 So. 3d 808, 810
(Miss. 2013) (citing Holland, 705 So. 2d at 307). Therefore, notwithstanding our holding that the circuit court
did not abuse its discretion by excluding evidence following a Rule 403 test of Bethany Clark’s felony drug
conviction subsequent to Kyllie Clark’s death, we find
that any potential error was rendered harmless by

App. 49
both the extent of cross-examination by Clark and the
presentation of evidence of Bethany Clark’s drug use.
F. Whether the admission of the medical report of
nurse practitioner Ashley Weiderhold violated Clark’s
confrontation rights under the Sixth Amendment.
¶79. Finally, Clark argues that his rights under the
Confrontation Clause of the Sixth Amendment were violated when Ashley Weiderhold, a nurse practitioner
who dictated Dr. Lakin’s report upon which Dr. Lakin
relied for her own testimony at trial, was not present
at trial for cross-examination by Clark. Clark asserts
that Dr. Lakin simply reviewed, opened, closed and
signed the report. Clark submits that the inability to
cross-examine Weiderhold required reversal of his conviction. The State instead argues that Clark’s Sixth
Amendment Confrontation Clause rights were satisfied when Dr. Lakin reviewed the report for accuracy
and signed it as a technical reviewer.
¶80. “Defendants in criminal cases have a fundamental constitutional right to be confronted with witnesses
against them.” Armstead, 196 So. 3d at 917 (citing
U.S. Const. amend. VI; Miss. Const. art. 3, § 26). Per
Melendez-Diaz v. Massachusetts, 557 U.S. 305, 129
S. Ct. 2527, 174 L.Ed. 2d 314 (2009), and Bullcoming
v. New Mexico, 564 U.S. 647, 664-665, 131 S. Ct. 2705,
180 L.Ed. 2d 610 (2011), “forensic reports created specifically to serve as evidence against an accused at trial
are among the ‘core class of testimonial statements’
governed by the Confrontation Clause.” Armstead,

App. 50
196 So. 3d at 918. We have approved the admission of
reports through the testimony of “technical reviewers,
who had examined reports generated by other analysts
and verified that the data supported the conclusions of
the reports.” Id. at 920 (citing Jenkins v. State, 102
So. 3d 1063, 1064, 1069 (Miss. 2012); Grim v. State,
102 So. 3d 1073, 1074, 1081 (Miss. 2012)).
¶81. The case against finding a constitutional violation is even stronger here than in Armstead or
Grim.10 Rather than a technical reviewer simply reviewing the work of an analyst and signing off on a report, Dr. Lakin testified at trial—subject to Clark’s
cross-examination—regarding a report that Weiderhold dictated for Dr. Lakin and that Dr. Lakin later
reviewed and signed. Simply stated, Clark’s fundamental right to confront the witness against him was
not violated by an inability to confront a party that dictated a medical report. Clark’s assertion, that Weiderhold rather than Dr. Lakin wrote the report, is without

10

See Armstead, 196 So. 3d at 920-21 (When an expert forensic science witness who served as a technical reviewer for tests
performed on a substance suspected to be cocaine reviewed the
data provided by the primary analyst and verified the primary
analyst’s conclusions and testified about her involvement in the
testing procedures, we held that the expert witness’s testimony
“did not violate Armstead’s rights under the Confrontation
Clause.”); see also Grim, 102 So. 3d at 1081 (When a testifying
laboratory supervisor witness was not involved in the testing of a
substance, but “reviewed the report for accuracy and signed the
report as the ‘case technical reviewer[,]’ ” we held that Grim’s
rights under the Sixth Amendment were satisfied because Grim
was able to cross-examine the supervisor.).

App. 51
merit and does not demonstrate a violation of Clark’s
rights under the Confrontation Clause.
¶82. Since the circuit court did not err by admitting
the medical report dictated by Weiderhold that was reviewed and signed by Dr. Lakin and since Dr. Lakin
was present at trial for cross-examination, Clark has
failed to show that a constitutional violation occurred
here. Accordingly, Clark’s sixth and final remaining assignment of error is without merit.
CONCLUSION
¶83. We reverse the decision of the Court of Appeals,
and we reinstate and affirm the decision of the Itawamba County Circuit Court.
¶84. THE JUDGMENT OF THE COURT OF APPEALS IS REVERSED. THE JUDGMENT OF
THE ITAWAMBA COUNTY CIRCUIT COURT IS
REINSTATED AND AFFIRMED.
MAXWELL, BEAM AND GRIFFIS, JJ., CONCUR.
RANDOLPH, C.J., CONCURS IN RESULT ONLY
WITHOUT SEPARATE WRITTEN OPINION. ISHEE,
J., DISSENTS WITH SEPARATE WRITTEN OPINION JOINED BY KITCHENS AND KING, P.JJ., AND
COLEMAN, J.

App. 52
ISHEE, JUSTICE, DISSENTING:
¶85. “Battle of the experts” is a misnomer. The State
failed to establish that its expert was anything more
than a qualified pediatrician. Daubert v. Merrell
Dow Pharmaceuticals, Inc., 509 U.S. 579, 113 S. Ct.
2786, 125 L.Ed. 2d 469 (1993), requires the prosecution
to show reliable methodology: that Dr. Lakin could reliably establish that Kyllie was injured in Clark’s custody and that her injuries were caused by abusive head
trauma. The State failed to do so, and, as such, I must
respectfully dissent.
¶86. Justice Chamberlin emphasizes that this Court
“must not allow ourselves to become the gatekeeper.”
Chamberlin Op. ¶ 13. I too am “confident that our
learned trial judges can and will properly assume the
role as gatekeeper on questions of admissibility of
expert testimony.” Miss. Transp. Comm’n v. McLemore, 863 So. 2d 31, 40 (Miss. 2003). Daubert endorses “trial-court discretion in choosing the manner of
testing reliability.” Kumho Tire Co. v. Carmichael,
526 U.S. 137, 158, 119 S. Ct. 1167, 1179, 143 L.Ed. 2d
238 (1999) (Scalia, J., concurring). But this discretion
“is not discretion to abandon the gatekeeping function.” Id. at 158-59, 119 S. Ct. 1167, 1179. “[I]t is not
discretion to perform the function inadequately. Rather, it is discretion to choose among reasonable means
of excluding expertise that is fausse and science that is
junky.” Id. at 159, 119 S. Ct. 1167, 1179. “This Court
and the Mississippi Court of Appeals have reversed
and remanded cases in which the trial court erroneously included or excluded expert testimony.” Inv’r

App. 53
Res. Servs. Inc. v. Cato, 15 So. 3d 412, 416 (Miss.
2009). It is the duty of this Court to determine whether
the trial court abused its discretion as the gatekeeper. Id.
¶87. Here, the trial court held a Daubert hearing regarding the admissibility of Dr. Lakin’s expert testimony. As an experienced pediatrician of almost twenty
years and a board-certified child-abuse specialist, Dr.
Lakin was qualified to render an expert opinion within
the field of pediatrics. But an extensive voir dire of Dr.
Lakin revealed that the methodology behind her opinion failed to meet the reliability prong.
¶88. The defense asked Dr. Lakin whether there was
disagreement in the scientific community over
SBS/AHT methodology. She conceded there was. When
asked whether she could cite any specific scientific
source to substantiate the methodology, she referred
generally to the American Academy of Pediatrics. The
defense asked Dr. Lakin if the field of pediatrics was
the sole discipline to study SBS/AHT; she replied that
it was not.
¶89. According to Dr. Lakin, physiologists, pathologists, radiologists, neurosurgeons, and engineers have
also analyzed the theory. She acknowledged that many
disciplines discount SBS/AHT as a reliable diagnosis.
When the State asked Dr. Lakin her conclusion as to
Kyllie’s cause of death, she replied that despite a lack
of external trauma to Kyllie and a lack of history of any
type of trauma, Kyllie’s internal hemorrhages as well

App. 54
as her rib fractures led Dr. Lakin to conclude SBS/AHT
was the cause of death.
¶90. Dr. Lakin testified during the hearing that she
could, to a degree of medical certainty, render an opinion as to the timing of Kyllie’s injury. She opined that
Kyllie’s injury could not have occurred before 3 p.m.,
meaning that Kyllie’s injury must have occurred while
she was in the sole custody of Clark. Dr. Lakin was extensively questioned regarding her degree of certainty
as to the timing of the injury.
¶91. Dr. Lakin also opined that the more severe the
neurological symptoms, the closer in time the injury
must have occurred. She reasoned that because
Kyllie’s symptoms manifested themselves quickly, her
injury took place within the precise window of 3 p.m.
to 5:30 p.m., when Kyllie was in the care of Clark. Dr.
Lakin’s opinion was the only evidence establishing
what happened to Kyllie and when it must have occurred. In order for Dr. Lakin’s testimony to pass muster under Daubert, the State was required to show
that her testimony reliably established when Kyllie
was injured and connected that time with Clark’s sole
custody of Kyllie. See 509 U.S. at 589-90, 113 S.Ct.
2786.
¶92. On cross-examination, the defense inquired as
to the specific injuries that Dr. Lakin diagnosed. By her
own account, Dr. Lakin could not connect Kyllie’s rib
fractures, which were healing, to January 5 and could
certainly not say they were inflicted during the twohour span that day in which Clark had sole custody of

App. 55
Kyllie. Clark further questioned Dr. Lakin about
whether the numerous resuscitation attempts made
on Kyllie could have impacted Kyllie’s diagnosis. The
pathologist’s report listed “aggressive cardiopulmonary resuscitation” (CPR) as one of the injuries observed at the autopsy. Dr. Lakin admitted that several
attempts were made to resuscitate Kyllie. When questioned about whether the CPR could have caused
Kyllie’s subdural hemorrhages, Dr. Lakin could not
rule the possibility out.
¶93. The Daubert Court held that whether the underlying theory can be tested is the key question in
whether the methodology is reliable. Daubert, 509
U.S. at 593, 113 S.Ct. 2786. The defense asked if Dr.
Lakin could state how much force was required to
cause SBS/AHT:
Q. All right. So what studies do you have to talk
about how the velocity with which a human being
can shake a baby? What studies do you have about
that?
A. Well, that’s the problem. You can’t do a study
on what forces are generated when a baby is
shaken because we can’t shake a human baby and
measure the force.
Q. So you can’t say how much force it takes, then,
to cause shaken baby syndrome?
A.

That’s correct.

¶94. Dr. Lakin admitted that she could not state the
amount of force required to cause Kyllie’s injuries. At
the Daubert hearing, when asked to produce any

App. 56
literature affirming the validity of SBS/AHT within
the medical community, Dr. Lakin replied that she did
not have any articles with her. Instead, she pointed
generally to the position paper of American Academy
of Pediatrics. Dr. Lakin admitted that she did not know
of any studies regarding the error rate of SBS/AHT diagnosis. In fact, the State never offered any scientific
literature to support Dr. Lakin’s position. Clark, on the
other hand, provided multiple articles, studies, and
other sources criticizing the validity of SBS/AHT.
¶95. Dr. Lakin admitted that a SBS/AHT diagnosis
creates an assumption about the caregiver due to the
lack of explanation for the infant’s injuries. She also
acknowledged that because she was not a pathologist,
she did not have the training nor expertise to determine cause of death. Dr. Lakin testified that there is
literature stating that the more severe the injury, the
more likely it is for symptoms to immediately appear,
but she could not name any specific source.
¶96. Instead of determining whether Dr. Lakin’s testimony was reliable, the circuit court erroneously
found only that Dr. Lakin was in fact an expert. The
record undeniably reflects Dr. Lakin’s competence and
expertise as a pediatrician and child-abuse treatment
provider. But this is inadequate to support a conclusion
that her methodology was reliable. It is the task of the
trial court, not the jury, to determine whether proffered
expert testimony is reliable.
¶97. Justice Chamberlin opines that “the real problem in this case” is “not so much the testimony of Dr.

App. 57
Lakin as it is the fact that the SBS/AHT diagnosis has
been increasingly challenged and questioned in recent
years.” Chamberlin Op. ¶ 24. Certainly I am concerned
about the validity of the science behind SBS/AHT, but
the validity of SBS/AHT is not before the Court per se.
The real problem is that Dr. Lakin did not establish the
required reliability of her methodology as required by
Daubert.
¶98. The trial court made only cursory findings as to
the admissibility of Dr. Lakin’s opinion testimony. In
fact, the trial court’s only finding regarding Dr. Lakin’s
testimony was that “she is qualified to testify.” The trial
court did not address the reliability or the relevance of
Dr. Lakin’s testimony. Justice Chamberlin hand waves
that the trial court lumped the Daubert findings of
relevance and reliability under the trial court’s term
“qualified.” Chamberlin Op. ¶ 20. Justice Chamberlin
is correct that there are no “magic words” required under Daubert, but there are still demands that must be
met—namely, reliability. Chamberlin Op. ¶ 20 (citing
Jones v. State, 920 So. 2d 465, 476 (Miss. 2006)). I
would emphasize that the qualifications of the witness
are not what establishes reliability under Daubert.
The trial judge as gatekeeper must determine if the
witness’s proffered methodology is reliable, not
whether the expert herself is reliable. See 509 U.S. at
589-90, 113 S.Ct. 2786.
¶99. Dr. Lakin was given extensive opportunity to defend her proposed methodology, but she could not. She
could not cite or name any specific article supporting
her methodology. Simply stating that peer-reviewed

App. 58
articles exist is not providing evidence of acceptance
in the scientific community. The defense expert on
the other hand thoroughly discredited SBS/AHT by
providing ample documentation criticizing the validity
of the diagnosis. If Dr. Lakin’s position in support of
SBS/AHT really is recognized by the scientific community as a viable alternative, Dr. Lakin failed to prove it.
The trial judge abused his discretion in admitting her
testimony.
¶100. Finally, I would echo the Court of Appeals in
stating that
Our reversal is not meant to serve as a determination that all scientific testimony regarding SBS is insufficiently reliable to serve as a
basis for civil or criminal liability. Our reversal
is instead intended to encourage the proponents of SBS testimony to solidly provide courts
with true “expert” testimony grounded on
sound methodology, principles, or techniques.
Clark v. State, No. 2017-KA-00411-COA, 2019 WL
5566234, at *1 n.1 (Miss. Ct. App. Oct. 29, 2020). If the
State had another bite at the apple, Dr. Lakin could
very well establish that her opinion regarding SBS/
AHT is reliable enough under Daubert to aid a jury.
¶101. I would find that the Court of Appeals correctly
held that the circuit court abused its discretion by admitting Dr. Lakin’s testimony. I respectfully dissent.
KITCHENS AND KING, P.JJ., AND COLEMAN, J.,
JOIN THIS OPINION.

App. 59
2019 WL 5566234
Only the Westlaw citation is currently available.
NOTICE: THIS OPINION HAS NOT BEEN
RELEASED FOR PUBLICATION IN THE
PERMANENT LAW REPORTS. UNTIL RELEASED,
IT IS SUBJECT TO REVISION OR WITHDRAWAL.
Court of Appeals of Mississippi.
Joshua Eric Hawk CLARK
a/k/a Joshua Clark, Appellant
v.
STATE of Mississippi, Appellee
NO. 2017-KA-00411-COA
|
10/29/2019
|
Rehearing Denied March 3, 2020
Attorneys and Law Firms
ATTORNEYS FOR APPELLANT: JIM WAIDE, DAN
W. WEBB, TUPELO, DANIEL M. WAIDE,
STARKVILLE
ATTORNEY FOR APPELLEE: OFFICE OF THE ATTORNEY GENERAL BY: SCOTT STUART, JACKSON
EN BANC.
Opinion
TINDELL, J., FOR THE COURT:
¶1. An Itawamba County jury convicted Joshua
Clark (Josh) of the second-degree murder of his fourmonth-old daughter, Kyllie Clark. At trial, the State’s

App. 60
case against Josh relied upon the diagnosis that Kyllie
died from shaken-baby syndrome (SBS) and the expert-opinion testimony provided by pediatrician Dr.
Karen Lakin as to the timing of Kyllie’s fatal injuries.
In this opinion, we address whether Dr. Lakin’s expert
testimony on SBS met the reliability prong of Mississippi’s modified Daubert standard as required by Mississippi Rule of Evidence 702; Kumho Tire Co. Ltd. v.
Carmichael, 526 U.S. 137, 119 S.Ct. 1167, 143 L.Ed.2d
238 (1999); Daubert v. Merrell Dow Pharmaceuticals
Inc., 509 U.S. 579, 113 S.Ct. 2786, 125 L.Ed.2d 469
(1993); and Mississippi Transportation Commission v.
McLemore, 863 So. 2d 31 (Miss. 2003).
¶2. Josh’s appeal arises from a prosecutorial model
for a category of cases involving similar facts: Kyllie
died in 2008 when SBS charges were common; Josh
claimed his innocence; no witness purported to have
seen Josh shake or ever abuse Kyllie in any way; no
apparent indications of recent trauma existed; yet,
solely on the basis of Dr. Lakin’s expert testimony, the
jury found Josh, who had no prior criminal record and
was a father of three young children, guilty of seconddegree murder. Kyllie was under Josh’s exclusive care
for approximately three hours before she began gasping for air and went limp. Josh, along with Kyllie’s
mother, Bethany Clark, rushed Kyllie to the hospital.
Despite multiple resuscitation attempts and medical
intervention, Kyllie died.
¶3. In reversing Josh’s conviction and sentence and
remanding for a new trial, we find that Dr. Lakin’s
expert-opinion testimony failed to meet the Daubert

App. 61
standard and was so unreliable as to render portions
of her testimony inadmissible under the rules of evidence. Dr. Lakin may have been competent in her expertise as a pediatrician and child-abuse-treatment
provider. Her competence, however, was not the focus
of the Daubert hearing. Rather than focusing mainly
on Dr. Lakin’s expert qualifications, the circuit court
was required to also examine the substance and methodology of her proffered testimony regarding SBS as a
reliable theory and, in particular, the reliability of her
opinion on the timing of Kyllie’s fatal injuries. As further discussed below, we therefore find reversible error
in the circuit court’s admission of Dr. Lakin’s testimony. Because we reverse Josh’s conviction and sentence and remand his case on this issue, we decline to
address his remaining assignments of error on appeal.1
FACTS
¶4. Josh and Bethany, along with their three children, Cadence, and twins Kyllie and Quinton, moved
to a rented home in Itawamba County, Mississippi, in
late 2007. On January 5, 2008, Cadence was two years
old, and Kyllie and Quinton were four months old. Two
teenaged friends of Bethany’s, Haley Parker and Morgan Wright, also lived in the Clarks’ home. Bethany’s
1

Our reversal is not meant to serve as a determination that
all scientific testimony regarding SBS is insufficiently reliable to
serve as a basis for civil or criminal liability. Our reversal is instead intended to encourage the proponents of SBS testimony to
solidly provide courts with true “expert” testimony grounded on
sound methodology, principles, or techniques.

App. 62
oldest child, five-year-old Savannah, also sometimes
stayed with the Clarks.
¶5. Josh typically came home from his out-of-state
construction job on Friday afternoons and spent the
weekends with his family. From Friday nights until
early on Monday mornings, Josh took care of the children. Josh let Bethany sleep through the night on his
weekends home while he got up every two or three
hours to feed the twins. At trial, no one testified to seeing Josh harm any of the four children, and Bethany
considered Josh to be a good father.
¶6. On Saturday, January 5, 2008, Josh arose at 9
a.m. and let Bethany and the teenagers, Haley and
Morgan, sleep until they awoke around 2 p.m. Josh
fixed breakfast and lunch for the two older children,
Savannah and Cadence. Josh testified that he fed and
burped Quinton and tried to feed Kyllie. Josh noticed
that Kyllie was fussy that day, and he assumed that
she felt badly. Around 3 p.m., Bethany and the teenagers left to run errands. Bethany testified that when she
and the teenagers left, Kyllie was fine. The four children were then left in Josh’s exclusive care until Bethany and the teenagers returned home at 5:30 p.m.
¶7. Josh testified that maybe five or ten minutes before Bethany and the teenagers returned, Kyllie made
a gasping sound. Upon returning and seeing Kyllie’s
condition, Morgan called 911. Josh testified that he
needed to get dressed, and he took Kyllie into the
bedroom with him. At this point, Kyllie went limp.
Bethany brought Kyllie back out to the living room and

App. 63
attempted CPR. Josh and Bethany decided to take
Kyllie to the hospital.2 As Bethany ran into the hospital with Kyllie, Bethany “popped” Kyllie against the
door. Medical records reflect that the examining doctor
at the local hospital noted Kyllie may have suffered
from sudden-infant-death syndrome.
¶8. Local hospital staff sent Kyllie to Memphis, Tennessee, for specialized care at Le Bonheur Children’s
Hospital. Prior to and after her arrival at Le Bonheur,
multiple vigorous CPR attempts were made. The Le
Bonheur staff who examined Kyllie diagnosed her with
rib fractures, retinal and subdural hemorrhages, and
brain swelling. Dr. Lakin consulted on Kyllie’s case at
Le Bonheur. Kyllie’s brain showed the presence of subacute or acute-on-chronic hematoma. This finding was
described at trial as an older stage of blood in Kyllie’s
brain as well as a new bleed, indicating there had been
past bleeding in Kyllie’s brain. Tragically, at Le Bonheur the staff declared Kyllie brain dead and took her
off life support.
¶9. The police investigated Kyllie’s death based, at
least in part, on the initial information from Le Bonheur and Dr. Lakin. Although the medical records reflected no indication of recent accidental trauma to
Kyllie in the days or weeks before her death, Haley
admitted seeing Cadence fall on Kyllie. Additionally,
2

One significant factual difference existed between the
statements given by Josh and the teenagers. Josh testified that
he wanted to take Kyllie to the hospital when he and the teenagers realized Kyllie had gone limp, but the teenagers each said that
Josh, at least immediately, did not want to go to the hospital.

App. 64
Jacqueline Fifield, who sometimes babysat the twins,
testified that she once found Kyllie on the floor and
that Cadence told her that Bethany had dropped
Kyllie. A social worker noted in Kyllie’s Le Bonheur
medical records that Kyllie’s injuries were suggestive
or consistent with SBS or child abuse. Dr. Lakin opined
that, with no history of any type of significant trauma,
the hospital’s findings of brain trauma, retinal hemorrhages, and rib fractures combined to support her opinion that Kyllie died due to SBS. Officer Hillhouse, one
of the investigating officers, testified that the Le Bonheur medical records referred to Kyllie’s injuries as
consistent with SBS or “an adult . . . [grabbing] the
torso of the child and [shaking] the child.” Officer Hillhouse interpreted the note to mean that either Josh or
Bethany had injured Kyllie. While the police could not
pinpoint the exact time Kyllie’s injuries had been inflicted, they ruled out Bethany as the perpetrator because Kyllie’s breathing trouble started when Kyllie
was in Josh’s exclusive care.
¶10. On March 26, 2008, an Itawamba County grand
jury indicted Josh on Count I, the commission of felonious child abuse and capital murder “by violently
shaking [Kyllie], causing rib fractures and internal injuries . . . ,” and Count II, the felonious child abuse of
Kyllie’s twin, Quinton.
¶11. Pursuant to a plea bargain, Josh agreed to plead
guilty in 2010 to the reduced charge of Kyllie’s depraved-heart murder. Josh’s counsel then allowed Josh
to enter into the plea agreement without retaining an
expert to examine and rebut the State’s SBS theory on

App. 65
the cause and timing of Kyllie’s fatal injuries.3 The circuit court sentenced Josh to life imprisonment. Later,
the circuit court granted Josh’s motion for post-conviction relief (PCR) after finding that Josh’s trial counsel
had rendered ineffective assistance by failing to introduce expert testimony to rebut the State’s SBS expert
testimony. The order granting Josh relief noted that
“there is considerable conflict within the medical community concerning [SBS].” The circuit court’s ruling on
the PCR motion both assured Josh of his right to expert assistance and actually required Josh to retain an
expert to rebut the State’s SBS theory.
¶12. With both new counsel and an expert to dispute
the State’s SBS testimony, Josh faced a new trial on
the charge of Kyllie’s capital murder. Before trial, Josh
moved to preclude the State’s introduction of Dr.
Lakin’s testimony about SBS/abusive head trauma
(SBS and/or AHT).4 Josh argued that SBS is no longer
a generally accepted diagnosis in the absence of evidence of external injuries and that SBS could not be
used to accurately determine the time of Kyllie’s
3

At the plea hearing, the State presented its offer of proof,
which consisted solely of Dr. Lakin’s opinion as to the cause of
death, and the defense accepted the State’s offer of proof.
4
In the past, certain medical providers used the term “SBS”
generally to refer to an infant with certain unexplained intercranial/
subdural hemorrhages (bleeding on the brain), retinal hemorrhages (bleeding in the eye), and no history of traumatic accidental injury. Now, medical providers use the term “AHT” to refer
to that same diagnosis, generally expanding the cause of an infant’s condition to include not only a violent shaking but also some
type of impact. According to Dr. Lakin, “SBS” and “AHT” are
sometimes used interchangeably.

App. 66
injuries. Josh supported his motion with numerous articles, studies, and criticisms of SBS. The circuit court
held what it referred to as a Daubert hearing, after
which the circuit judge stated, “[T]his thing is identified in my mind, at least, as [an SBS] case.” The circuit
court summarily denied Josh’s motion.5
¶13. In opening statements, the State articulated its
theory of the case that Josh must have been responsible for Kyllie’s death because she was in his sole care
for almost three hours before she began to experience
breathing trouble and other symptoms. The State
treated the case as a shaken-baby case and theorized
that Josh abused Kyllie during that time period, which
resulted in her fatal injuries. The State primarily relied upon Dr. Lakin’s trial testimony. Dr. Lakin opined
at trial that someone killed Kyllie by shaking her, with
the possibility that Kyllie’s head impacted something.
Dr. Lakin further testified that the injuries that killed
Kyllie could only have occurred during the three-hour
window Kyllie was in Josh’s exclusive care. Dr. Lakin
testified that, after sustaining her injuries, Kyllie
would not have functioned normally, would have lost
consciousness very quickly, and would not have been
able to eat or to be fed.
¶14. In support of her trial opinions and conclusions,
Dr. Lakin cited only the American Academy of Pediatrics (AAP) and stated that the AAP recognizes AHT as
5

In our summary of the facts, we present only Dr. Lakin’s
trial testimony. We reserve a discussion of her Daubert-hearing
testimony for the analysis portion of our opinion.

App. 67
an entity with SBS as a component. According to Dr.
Lakin, under the AAP statement, AHT is supported by
findings of intracranial hemorrhages, which may or
may not be associated with fractures and retinal hemorrhages. Dr. Lakin claimed that Canada’s version of
the AAP also recognizes SBS/AHT and that the Center
for Disease Control funds research for SBS/AHT. She
testified that challenges to the theories of SBS/AHT
come less from the pediatric sciences and more from
other sciences and the legal arena. While Dr. Lakin
stated that numerous peer-reviewed articles support
that the disciplines of pediatrics, ophthalmology, neurosurgery, and neurology recognize AHT, she could not
name or cite to any of those articles.
¶15. On cross-examination at trial, Dr. Lakin agreed
that, according to the AAP, “[t]he mechanisms and result of injuries of accidental and abusive head injury
overlap[,] and there is no single or simple test to determine the accuracy of the diagnosis.” This AAP statement was the updated version upon which her opinions
were based, yet she was unaware of the exact statement. Further, Dr. Lakin admitted she was unaware
that in 2009, the AAP removed language that presumed child abuse when subdural hematoma, retinal
hemorrhages, and brain swelling exist.
¶16. Dr. Lakin further admitted at trial that, upon
evaluation at Le Bonheur, Kyllie’s rib fractures appeared to be healing rather than recently sustained,
the fractures would have taken several days to develop, and it was unlikely they occurred on January 5,
2008, during the time Kyllie was with Josh. Dr. Lakin

App. 68
confirmed that she did not mean to suggest that Josh
had anything to do with the rib fractures, and she
stated, “There is not a time/date stamp on the [rib]
fracture that tells you that it happened one week before or two weeks before. But we know that the healing
starts to appear around 5-7 days in an infant.”
¶17. Although Dr. Lakin opined that many different
accidental and nonaccidental causes potentially existed for each of Kyllie’s individual injuries (subdural
hemorrhages, retinal hemorrhages, and rib fractures),
she stated the combination of the injuries was inconsistent with a natural cause of death. She agreed that
to eliminate the other possible causes of Kyllie’s death,
the medical providers would have to go through a process called differential diagnosis. Dr. Lakin also agreed
that no differential-diagnosis process was completed
on Kyllie, no test was done to look for neck injuries, and
Kyllie had no external head injury.
¶18. After Dr. Lakin’s full trial testimony, the circuit
court held a bench hearing on new information received and on Josh’s request to recross Dr. Lakin, particularly with regard to her understanding of histology
slides and their use in determining the time of Kyllie’s
brain injury. In reference to Dr. Lakin’s testimony, the
circuit judge stated, “I don’t know that she’s ever testified to anything other than that she could not quantify
the time. . . .” However, Dr. Lakin had specifically testified that the injuries occurred after Kyllie last appeared “fine” before 5 p.m., or after Josh last fed
Kyllie. Dr. Lakin testified that Kyllie’s being healthy,
eating, and playing between 3 p.m. and 5 p.m. was

App. 69
inconsistent with Kyllie’s collapsing, stopping breathing, and dying within 24 to 36 hours. Then, in contradiction to her earlier testimony, Dr. Lakin admitted on
cross-examination that she had not and could not determine the exact time of Kyllie’s injuries. Dr. Lakin
agreed that she would defer to a pathologist on the
subject of pathology.
¶19. Another State’s witness, Dr. Mark LeVaughn, a
forensic pathologist and the chief medical examiner for
the State of Mississippi, testified that the time Kyllie’s
subdural hemorrhage occurred could not be determined. Dr. LeVaughn explained that a cellular view of
a hematoma could give a more precise time of when the
injury occurred but not an exact time. He reviewed the
histology slides of Kyllie’s subdural hematoma and
found that they were of no diagnostic value in determining the time of the hemorrhage. The State rested
with its case dependent upon Dr. Lakin’s trial testimony.
¶20. Dr. Mark Shuman, also a forensic pathologist,
testified on Josh’s behalf that the cause of Kyllie’s
death was probably blunt head injury or impact head
injury. While he could not testify as to how or when
Kyllie’s injuries occurred, Dr. Shuman testified that
shaking did not cause the injuries. Dr. Shuman discussed the evolution of SBS and AHT as medical theories and explained that studies had been done with
test dummies to determine the shaking forces needed
to cause fatal brain injuries in infants without also
injuring an infant’s neck. Dr. Shuman discussed biomechanical engineer studies regarding the forces

App. 70
generated by shaking an infant. He testified that the
force of dropping a baby a few feet or stepping on an
infant could cause the injuries seen in Kyllie.
¶21. As Dr. Shuman explained, even with minor head
injuries, it is standard hospital practice to provide a
discharge instruction to monitor a child for 24 hours
and to perhaps even wake the child every hour to make
sure he or she is okay. Dr. Shuman stated this is because, unlike Dr. Lakin’s immediate-symptom-onset
theory, the symptoms and severe consequences of head
injury can be delayed. Someone can appear completely
normal at first but later lose consciousness.
¶22. Dr. Shuman and Dr. LeVaughn both testified
that, had a proper sample histology slide of Kyllie’s
dura been prepared, they could have given an opinion
as to the approximate date and time of Kyllie’s brain
injury. A histology slide of the dura matter would have
allowed the pathologists to determine how long the
blood under Kyllie’s dura had been there—whether a
few days, a week, or a month. But the histology slides
were poorly prepared under the supervision of a Statecontracted doctor, and of the thirteen tissue slides provided to Josh’s defense expert, none of the slides were
of the dura. The pathologists therefore testified that
the best way to determine the time of Kyllie’s injuries
had been rendered impossible.
¶23. In contradiction to Dr. Lakin, Dr. Shuman testified that retinal hemorrhages do not demonstrate that
some type of child abuse has occurred. Although a
number of studies have been performed to show that

App. 71
retinal hemorrhages occur from shaking, it has never
been proven. He instead testified that since 1957, experimentation has shown that pressure inside the
head can cause retinal hemorrhages. Resuscitation efforts, he testified, increase intracranial pressure, causing retinal hemorrhages. As the trial testimony
reflected, multiple resuscitation efforts were attempted
on Kyllie.
¶24. Also unlike Dr. Lakin, Dr. Shuman opined that
short falls can cause significant head injury. He supported his testimony with an expert report listing numerous and various academic and peer-reviewed
studies. Dr. Shuman further named the doctors who
wrote the articles supporting his testimony and those
who performed the studies upon which his opinions
were based. Although he agreed that the majority of
pediatricians believe in SBS, he stated that pediatricians treat children and childhood diseases while, in
comparison, forensic pathologists focus on autopsy, pathology, trauma, and the legal issues associated with
these areas. He explained that forensic pathologists,
like himself, use autopsies, examinations, and pathology to determine the cause and manner of death. Dr.
Shuman personally disagreed with the existence of the
SBS theory and testified that no scientific evidence
shows a human can shake a child hard enough to cause
a primary brain injury.
¶25. Dr. Shuman testified that when children suffer
a fatal head injury, they sometimes are asymptomatic.
He explained that, especially with a baby of Kyllie’s
age, the symptoms can be very subtle and may include

App. 72
vomiting, sleepiness, and irritability. These are all
things that can either be a symptom of a head injury
or just a normal fussy baby. Thus, Josh’s observation
that Kyllie had been acting fussy all day on January 5,
2008, could have been an earlier manifestation of
Kyllie’s injuries. This fact, along with Dr. Lakin’s admission that she could not provide the date and time
of Kyllie’s injuries, reflected a missing piece of the
State’s case—the causal connection between Kyllie’s
injuries and the few hours she was solely in Josh’s care.
¶26. Dr. Shuman testified that blunt head injury can
be accidental or intentional and that examination of
the body and medical history cannot, in a case like
Kyllie’s, disclose whether the injury was inflicted intentionally as opposed to accidentally. In sum, Dr. Shuman testified that although SBS was once a generally
accepted scientific theory, now, based on current and
expanding scientific research and literature, the theory has been questioned. He stated the theory alone
cannot be used to link an infant’s diagnosable injuries
and the assumptions made under the SBS theory to
the conclusion that a certain fatal injury occurred at a
certain time.
¶27. Josh also testified on his own behalf and denied
ever abusing Kyllie. Further, no witnesses testified
that Josh shook Kyllie, and the State presented no
physical evidence of any witnessed trauma to Kyllie.
After both the State and the defense rested, the jury
convicted Josh of Kyllie’s second-degree murder. The
circuit court sentenced Josh to serve forty years in the
custody of the Mississippi Department of Corrections.

App. 73
Josh unsuccessfully moved for a directed verdict and a
new trial. Aggrieved, Josh appeals.
STANDARD OF REVIEW
¶28. We review the admission or exclusion of evidence, including expert testimony, for abuse of discretion. Inv’r Res. Servs. Inc. v. Cato, 15 So. 3d 412, 416
(¶2) (Miss. 2009). Thus, a trial judge’s ruling will stand
“[u]nless we conclude that the discretion was arbitrary
and clearly erroneous, amounting to an abuse of discretion. . . .” Puckett v. State, 737 So. 2d 322, 342 (¶57)
(Miss. 1999).
DISCUSSION
¶29. Our analysis regarding the admissibility of Dr.
Lakin’s expert testimony focuses on the principles and
methodology she applied to form her opinions. See
McLemore, 863 So. 2d at 36-37 (¶13) (“The focus of this
analysis [on the admissibility of expert witness testimony] must be solely on principles and methodology,
not on the conclusions they generate.” (internal quotation mark omitted)). The question before this Court is
whether the circuit court abused its discretion by ruling that Dr. Lakin’s qualifications as a pediatrician and
child-abuse treatment provider adequately supported
her opinion that a causal connection existed between
Kyllie’s medically identifiable injuries and her conclusion as to the specific timing of Kyllie’s purported SBS
injuries.

App. 74
¶30. Rule 702, which governs the admissibility of expert testimony, states:
If scientific, technical, or other specialized
knowledge will assist the trier of fact to understand the evidence or to determine a fact
in issue, a witness qualified as an expert by
knowledge, skill, experience, training, or education, may testify thereto in the form of an
opinion or otherwise, if (1) their testimony is
based upon sufficient facts or data, (2) the testimony is the product of reliable principles
and methods, and (3) the witness has applied
the principles and methods reliably to the
facts of the case.
¶31. Thus, when determining the admissibility of expert testimony, courts must first determine whether
the expert is qualified to give his or her opinion and
then whether the expert’s opinion is based on scientific
knowledge (reliability) and will assist the trier of fact
in understanding or determining a fact in issue (relevance). McLemore, 863 So. 2d at 38 (¶16). As Rule 702
states, the testimony must be “based on sufficient facts
or data” and “the product of reliable principles and
methods.” M.R.E. 702.
¶32. Experts are supposed to educate and assist the
trier of fact on those fields outside the realm of common-sense understanding. Peters v. Fire Star Marine
Serv., 898 F.2d 448, 450 (5th Cir. 1990); McMichael v.
Howell, 919 So. 2d 18, 24 (¶15) (Miss. 2005). Expert evidence can be both powerful and quite misleading because of the difficulty jurors may have evaluating it.

App. 75
Daubert, 509 U.S. at 595, 113 S.Ct. 2786. Under such
circumstances, when an expert is allowed to testify
about specific scientific knowledge or scientific methodology, the risk of prejudice is very high because such
testimony may tend to mislead or tempt the jury to decide the case on an improper basis. M.R.E. 403 advisory committee note; accord Fed. R. Evid. 403 advisory
committee notes. Thus, the circuit court is vested with
the “gatekeeping responsibility” for expert-testimony
admissibility. McLemore, 863 So. 2d at 36 (¶11) (quoting Daubert, 509 U.S. at 589, 113 S.Ct. 2786).
¶33. Previously, in Middleton v. State, 980 So. 2d 351,
353 (¶4) (Miss. Ct. App. 2008), Dr. Lakin was accepted
as an expert in pediatrics with a subspecialty in child
abuse, and she testified that a child’s injuries most
likely resulted from SBS.6 Regardless of any similarities between her testimony in that case and this case,
however, we note that Dr. Lakin’s prior acceptance as
an expert does not automatically award her continued
certification as an expert in her field or subspecialty in
any future litigation. See Gause v. State, 65 So. 3d 295,
306-07 (¶¶35-36) (Miss. 2011) (Kitchens, J., specially
concurring), limited on other grounds by Hall v. State,
127 So. 3d 202, 207 (¶15) (Miss. 2013). Further, in light
of Josh’s presented evidence that showed the reliability of SBS as a diagnosis is being increasingly challenged and questioned, Dr. Lakin was required to
establish anew in this case that, under the exact circumstances presented, SBS reliably explained Kyllie’s
6

Although Middleton refers to Dr. Lakin as “Dr. Larkin,” we
recognize this to be a scrivener’s error.

App. 76
death. Thus, any reliance on similarities with Dr.
Lakin’s prior testimony in Middleton is misplaced. See
King v. Singing River Health Sys., 158 So. 3d 318, 326
(¶33) (Miss. Ct. App. 2014) (recognizing that the automatic introduction of expert opinions based on personal
experience but contradicted by scientific evidence
would effectively nullify Rule 702 and Daubert).
¶34. Like the dissent, we acknowledge the present
record reflects Dr. Lakin’s competency in her expertise
as a pediatrician and child-abuse treatment provider.
No dispute exists as to her qualifications to render
an expert opinion in those areas. Dr. Lakin’s nearly
twenty years of experience focused solely in pediatrics
and child-abuse treatment supported her qualification
as an expert in those particular fields. The record also
clearly shows that Dr. Lakin’s testimony was relevant.
The State had no factual-witness testimony regarding
when and how Kyllie was injured. The State therefore
relied upon Dr. Lakin’s expert testimony to explain not
only what happened to Kyllie but also when her injuries occurred.
¶35. Unlike the dissent, our focus is not on whether
Dr. Lakin was qualified to testify as an expert but
whether her expert opinions, especially as to the causation and timing of Kyllie’s injuries, met Daubert’s
standards for admission. Thus, our analysis concentrates on the reliability of Dr. Lakin’s expert testimony.
Daubert provides a list of illustrative, but not exhaustive, factors that may be considered to assess the reliability of proffered expert testimony and the principles
and methodology underlying an expert’s opinion.

App. 77
McLemore, 863 So. 2d at 36-37 (¶13) (citing Daubert,
509 U.S. at 592-94, 113 S.Ct. 2786). These factors include:
[ (1) ] whether the theory or technique can be and
has been tested;
[ (2) ] whether it has been subjected to peer review
and publication;
[ (3) ] whether, in respect to a particular technique,
there is a high known or potential rate of error;
[ (4) ] whether there are standards controlling the
technique’s operation; and
[ (5) ] whether the theory or technique enjoys general acceptance within a relevant scientific community.
Id. at 37 (¶13). The applicability of these factors in a
particular case “depends on the nature of the issue, the
expert’s particular expertise, and the subject of the testimony.” Id. The trial court should consider the Daubert factors “where they are reasonable measures of the
reliability of expert testimony.” Id.
¶36. The Daubert standard we apply in Mississippi is
a narrower and stricter standard than simply demonstrating the general validity of SBS. The Daubert
standard requires experts to prove that their offered
opinion evidence is fundamentally scientifically reliable and not just generally accepted by peers in their
specific discipline. Adcock v. Miss. Transp. Comm’n, 981
So. 2d 942, 947 (¶16) (Miss. 2008). Thus, here the State
needed to show at the Daubert hearing that Dr. Lakin’s

App. 78
precise theory was sufficiently reliable to perform “the
task at hand”—to inform the jury on how and when
Kyllie’s fatal injuries occurred. See Daubert, 509 U.S.
at 597, 113 S.Ct. 2786. Dr. Lakin needed to establish
that a qualified pediatrician can reliably diagnose a
child with Kyllie’s injuries (subdural hemorrhages and
retinal hemorrhages) as a child suffering from injuries
caused by SBS. Further, the State needed Dr. Lakin to
reliably establish the timing of Kyllie’s SBS-caused injuries to the specific time period when Kyllie was in
Josh’s exclusive care.
¶37. Circumstances exist where “[a] court may conclude that there is simply too great an analytical gap
between the data and the opinion proffered.” Denham
v. Holmes ex rel. Holmes, 60 So. 3d 773, 788 (¶53) (Miss.
2011) (citing Watts v. Radiator Specialty Co., 990 So. 2d
143, 149 (¶17) (Miss. 2008)). As this Court has previously explained:
[W]hen the reliability of an expert’s opinion is
attacked with credible evidence that the opinion is not accepted within the scientific community, the proponent of the opinion under
attack should provide at least a minimal defense supporting the reliability of the opinion.
The proponent of the expert cannot sit on the
side lines and assume the trial court will ignore the unrebutted evidence and find the expert’s opinion reliable. Were we automatically
to allow introduction of expert opinions which
are based upon nothing more than personal
experience in cases where those opinions are
contradicted in the scientific literature, we

App. 79
would effectively render Rule 702 and Daubert a nullity.
King, 158 So. 3d at 326 (¶33).
¶38. At the Daubert hearing, Dr. Lakin initially testified that three diagnosed injuries formed the basis
for her opinion that Kyllie died due to SBS: (1) bleeding
beneath the outer layer of the dura surrounding the
brain; (2) retinal bleeding; and (3) the presence of rib
fractures. Notwithstanding the absence of any other
signs of abuse, this triad of injuries, as described by
Dr. Lakin, not only purported to explain to the jury the
mechanism of Kyllie’s alleged abuse but also purported
to allow identification of the timing of the abuse and
the perpetrator—the last caregiver to be in Kyllie’s
presence during her final lucid moments.
¶39. At the Daubert hearing, Dr. Lakin explained
how SBS (which is today identified as AHT) was a condition seen primarily in infants who had unexplained
significant hemorrhages in the space between their
skull and their brain with no physiological explanation
as to their cause. Dr. Lakin admitted that a shakenbaby diagnosis assumes a conclusion about a caregiver
based on the lack of explanation for an infant’s injuries. Notably, Dr. Lakin defined SBS/AHT as the terminology used when medical providers “are not present
when [an infant’s injury] occurs to say that [is] the actual mechanism as to what occurred.”
¶40. Dr. Lakin testified her answers were based on
her training and experience as a practicing pediatrician and the information she collected from the

App. 80
evidence, data, medical history, and Kyllie’s evaluation.
In support of her opinions and conclusions given during the Daubert hearing, Dr. Lakin cited only the AAP
and stated that the AAP recognizes AHT as an entity
with SBS as a component. According to Dr. Lakin, under the AAP statement, AHT is supported by findings
of intracranial hemorrhages, which may or may not be
associated with fractures and retinal hemorrhages.
¶41. Dr. Lakin agreed that many articles in many different disciplines, from neuropathology to biomechanical engineering, discount SBS as a reliable diagnosis.
Dr. Lakin further admitted that she did not know how
much force would cause Kyllie’s injuries and that she
had not published anything regarding SBS/AHT. She
was unaware of any studies regarding the error rate of
SBS as a diagnosis, and she admitted she had not personally done any research to eliminate short falls as a
cause of these types of injuries. Further, Dr. Lakin admitted that no test was done to look for neck injuries
to Kyllie and that Kyllie had no external head injury
evidencing an impact.
¶42. Dr. Lakin further admitted that, unlike a
pathologist, she had no training or expertise in determining cause of death. She could name no scientific literature to support the idea that one could pinpoint to
within two hours when these types of injuries occur. In
fact, she testified that one of her professors authored a
scientific article concluding that, in these types of
cases, one could not give any indication of time of injury except for the 24-hour period prior to the symptoms’ appearance. To support her SBS/AHT theory,

App. 81
Dr. Lakin had only her brief recall of an AAP statement and her own opinion that “there is” literature
that states the more severe the injury the more likely
it is for the symptoms to appear immediately. Despite
promises from the State and its witnesses to produce
articles or other materials to support the opinions
given in the Daubert hearing, the State never produced
any article to attach to the hearing record as an exhibit. Unlike the State, the defense provided numerous
articles, studies, and criticisms of SBS to support its
argument that SBS is no longer as widely accepted in
the medical community as it once was.
¶43. The circuit judge stated at the Daubert hearing
that he was not “insensitive to the fact that there may
be some difficulty or some difference of opinion about
that which is called SBS.” Although he recognized the
disagreement surrounding the validity of SBS, the circuit court still failed to perform its vital gatekeeping
function of determining whether the State had shown
Dr. Lakin’s expert opinion testimony on SBS to be reliable. See M.R.E. 702 advisory committee note. As
stated by the circuit judge himself, the Daubert hearing he conducted was only to determine “the matter of
[Dr. Lakin’s] qualification to testify as an expert.” The
circuit court undertook no Daubert analysis of SBS itself or its competing theories. When Josh’s attorney requested the opportunity to additionally voir dire Dr.
Lakin on the reliability of her expert testimony, the circuit judge stated, “Well, I made a determination she is
qualified to testify . . . you can cross-examine her any

App. 82
way you want . . . I think [that is] what cross-examination is all about. . . .”
¶44. This statement by the circuit judge highlights
the precise issue upon which our reversal of Josh’s conviction and sentence is based. The whole purpose of
Mississippi’s Daubert standard is to ensure that expert
testimony provided to a jury is both relevant and reliable, not to determine whether the proposed expert is
in fact an expert. McLemore, 863 So. 2d at 36 (¶11). After all, it is our Daubert standard that requires the
court, not the jury, to be the gatekeeper of evidence. Id.
at 37 (¶14). Here, however, the circuit court left the determination of reliability to the jury and the cross-examination skills of Josh’s trial attorney.
¶45. We also note that, other than stating that he had
determined Dr. Lakin was qualified to testify, the circuit judge made no actual on-the-record findings regarding her qualifications or the reliability of her
expert testimony. We find this to be an abuse of discretion. In Carlson v. Bioremedi Therapeutic Systems Inc.,
822 F.3d 194, 201 (5th Cir. 2016), the Fifth Circuit of
the United States Court of Appeals found “the district
court clearly abused its discretion by not conducting a
Daubert inquiry or making a Daubert determination
on the record.”7 As the Fifth Circuit explained:

7

While not binding on this Court, we still find the Fifth Circuit’s holding insightful and relevant, especially in light of the
fact that the Mississippi Supreme Court restyled the Mississippi
Rules of Evidence in 2016 to be consistent with the Federal Rules
of Evidence. M.R.E. 101 advisory committee note.

App. 83
[W]e agree with three of our sister circuits
that a district court must still perform its
gatekeeping function by performing some
type of Daubert inquiry and by making findings about the witness’s qualifications to give
expert testimony. At a minimum, a district
court must create a record of its Daubert inquiry and articulate its basis for admitting expert testimony.
Id. at 201 (citations omitted). Furthermore, as the
Fifth Circuit noted, “[a]n expert’s testimony must be
reliable at each and every step or else it is inadmissible.” Id. (internal quotation mark omitted).
¶46. SBS as a scientific methodology or diagnosis
on its own must also be shown to be reliable. See
McLemore, 863 So. 2d at 37 (¶13). Yet Dr. Lakin failed
to, and was wholly unable to, cite any specific studies
supporting SBS as a diagnosis. Dr. Lakin’s SBS theory
was, by her own admission, based upon assumptions.
Dr. Lakin did not apply any known and tested theories
or consult any citable current literature. She relied on
a statement from the AAP—a position statement that
was updated in 2008-2009 to focus not on SBS but to
utilize the term AHT.8 Yet, Dr. Lakin could not directly
8

The AAP’s current statement on SBS, reaffirmed in 2017,
expressly states that the authors were compelled “to modify our
terminology to keep pace with our understanding of pathologic
mechanisms. Although shaking an infant has the potential to
cause neurologic injury, blunt impact or a combination of shaking
and blunt impact cause injury as well.” Cindy W. Christian, Robert Block, & the Committee on Child Abuse and Neglect, Abusive
Head Trauma in Infants and Children, Pediatrics, Vol. 123, Issue

App. 84
quote the statement. Nor did she analyze SBS methodology in light of its criticisms to determine if SBS remains a reasonable diagnosis. Dr. Lakin explained only
that SBS was a reasonable diagnosis because it was
based on the AAP statement.
¶47. For the reasons discussed above, we conclude
the circuit court abused its discretion because Dr.
Lakin’s expert testimony as to the cause and timing of
Kyllie’s death, though relevant, was unreliable and
failed to meet the criteria required by Daubert and
Rule 702. We further find the error of admitting Dr.
Lakin’s testimony was magnified since Dr. Lakin’s
testimony as to those issues was the only evidence to
5, 1409 (American Academy of Pediatrics May 2009). It further
states:
[M]edical and biomedical research, clinical and pathologic experience, and radiologic advances have improved our understanding of the range of mechanisms
that contribute to brain injury from AHT, yet controversy remains. . . . Controversy is fueled because the
mechanisms and resultant injuries of accidental and
abusive head injury overlap, the abuse is rarely witnessed, an accurate history of trauma is rarely offered
by the perpetrator, there is no single or simple test to
determine the accuracy of the diagnosis, and the legal
consequences of the diagnosis can be so significant. . . .
Pediatricians also have a responsibility to consider alternative hypotheses when presented with a patient
with findings suggestive of AHT. A medical diagnosis
of AHT is made only after consideration of all the clinical data. . . . Consultants in radiology, ophthalmology,
neurosurgery and other subspecialties are important
partners in the medical evaluation and can assist in interpreting date and reaching a diagnosis.
Id. at 1410.

App. 85
support the State’s theory of the case.9 The defense attacked SBS’s reliability with credible evidence, in the
form of numerous cites to studies and peer-reviewed
articles, that reflected the scientific community may no
longer wholly accept SBS.10 Thus, at the very least, the
State should have provided either a minimal defense
of articles or other expert testimony to support the reliability of the opinion. See Patterson v. Tibbs, 60 So. 3d
742, 750 (¶28) (Miss. 2011) (“[W]hen an expert renders
an opinion that is attacked as not accepted within the
scientific community, the party offering that expert’s
opinion must, at a minimum, present the trial judge
with some evidence indicating that the offered opinion
has some degree of acceptance and support within the
scientific community.”). This the State failed to do.
¶48. Our review reflects that Dr. Lakin’s proffered
testimony fell well short of Daubert’s expectations and
9

The dissent maintains that the State presented additional
evidence to support Josh’s conviction. The additional evidence to
which the dissent refers, however, is speculative at best and focuses on Josh’s reaction once Bethany and the other girls expressed concern about Kyllie’s condition rather than providing
support for the State’s theory as to the cause and timing of Kyllie’s
injuries.
10
In cases ranging from the United States Supreme Court to
the courts of our sister states, challenges to the science of
SBS/AHT reflect that SBS/AHT as a diagnosis falls well short of
being judicially noticed. See Cavazos v. Smith, 565 U.S. 1, 13-14,
132 S.Ct. 2, 181 L.Ed.2d 311 (2011) (Ginsburg, J., dissenting);
Del Prete v. Thompson, 10 F. Supp. 3d 907, 954-57 (N.D. Ill. 2014);
Commonwealth v. Epps, 474 Mass. 743, 53 N.E.3d 1247, 1260-66
(Mass. 2016); People v. Bailey, 47 Misc.3d 355, 999 N.Y.S.2d 713,
724-27 (N.Y. Cty. Ct. 2014); State v. Edmunds, 308 Wis.2d 374,
746 N.W.2d 590, 596-99 (Wis. Ct. App. 2008).

App. 86
should therefore have been excluded. There was no
proof that the medical science, as opined by Dr. Lakin,
reliably explained the biomechanical processes by
which SBS or AHT develop. There was also no proof
that the medical science, as discussed by Dr. Lakin, reliably aided the jury in understanding the cause and
timing of Kyllie’s injuries. Dr. Lakin was unable to provide the court or jury with any scholarly literature to
support the validity of her diagnosis. No differential diagnosis was considered. In short, neither the State nor
Dr. Lakin provided any scientific studies or medical literature—current or otherwise—to support the indictment’s charge of injury inflicted by shaking or to
support Dr. Lakin’s opinion that Kyllie’s breathing
troubles started at approximately the same time as the
infliction of the injuries. For these reasons, we find that
Dr. Lakin’s testimony on SBS was unreliable and that
the circuit court erred in admitting it.
CONCLUSION
¶49. Because we find the circuit court abused its discretion by admitting into evidence Dr. Lakin’s expert
testimony at the Daubert hearing, we reverse Josh’s
conviction and sentence for second-degree murder. Due
to our discussion and disposition on these issues, we
decline to address Josh’s remaining issues on appeal,
and we remand this case to the circuit court for a new
trial consistent with this opinion.11
11

See Lockhart v. Nelson, 488 U.S. 33, 40, 109 S.Ct. 285, 102
L.Ed.2d 265 (1988) (holding that “the Double Jeopardy Clause

App. 87
¶50.

REVERSED AND REMANDED.

GREENLEE, WESTBROOKS, McDONALD, McCARTY
AND C. WILSON, JJ., CONCUR. J. WILSON, P.J.,
CONCURS IN RESULT ONLY WITHOUT SEPARATE WRITTEN OPINION. LAWRENCE, J., DISSENTS WITH SEPARATE WRITTEN OPINION,
JOINED BY BARNES, C.J., AND CARLTON, P.J.
LAWRENCE, J., DISSENTING:
¶51. I respectfully disagree with the majority that
the circuit court erred in admitting Dr. Lakin’s testimony. The majority’s claim that her testimony “failed

allows retrial when a reviewing court determines that a defendant’s conviction must be reversed because evidence was erroneously admitted against him, and also concludes that without the
inadmissible evidence there was insufficient evidence to support
a conviction” when, “clearly with that evidence, there was enough
to support the sentence”); Campbell v. State, 798 So. 2d 524, 530
(¶22) (Miss. 2001) (reversing the defendant’s murder conviction
and remanding for a new trial after finding error in the admission
of both the defendant’s statement to authorities and his bloodstained clothing and holding that the remaining admissible trial
evidence was insufficient to support his conviction); Hillard v.
State, 950 So. 2d 224, 230-31 (¶¶28-30) (Miss. Ct. App. 2007) (reversing the defendant’s convictions after finding error in the admission of accomplice testimony and holding that, even though
“there was quite meager evidence to sustain” one of the convictions, the proper result was still to remand for a new trial); Gavin
v. State, 785 So. 2d 1088, 1095 (¶28) (Miss. Ct. App. 2001) (“Even
when the only evidence on an issue has been declared inadmissible, the proper procedure is to remand.”).

App. 88
to meet the Daubert12 standard and was so unreliable
as to render portions of her testimony inadmissible” is
misplaced. For over twenty years, the standards set
forth in Daubert have governed admission or denial of
expert testimony in trial courts across the United
States. These standards, however, are not an exhaustive list that trial courts must check off to determine if
a witness is qualified as an expert. Miss. Trans.
Comm’n v. McLemore, 863 So. 2d 31, 36 (¶13) (Miss.
2003). In fact, when the supreme court adopted the
standards of this State, set forth in McLemore, it made
crystal clear:
We are confident that our learned trial judges
can and will properly assume the role as gatekeeper on questions of admissibility of expert
testimony. . . . The trial court can identify the
specific indicia of reliability of evidence in a
particular technical or scientific field. . . .
McLemore, 863 So. 2d at 39-40 (¶25). Further, the supreme court said, “We are certain that the trial judges
possess the capacity to undertake this review.” Id.
¶52. Respectfully, I fear that the majority’s opinion
will now either be precedent to create an expert-admission standard so high that it will be impossible to
reach, or it will be considered a new declaration that
this Court will now take it upon itself to be the gatekeeper of expert testimony and no longer trust the trial
courts to do their jobs. Here, the circuit judge heard
12

Daubert v. Merrell Dow Pharmaceuticals Inc., 509 U.S.
579, 113 S.Ct. 2786, 125 L.Ed.2d 469 (1993).

App. 89
hours of testimony from Dr. Lakin at the Daubert hearing and applied his discretion in determining that
Dr. Lakin was qualified to be accepted as an expert and
that her opinions were sufficiently reliable. The majority asserts that determination was an abuse of discretion. I disagree.
¶53. The reason for my dissent is threefold. First, I
do not believe the circuit court abused its discretion by
allowing Dr. Lakin to testify as an expert witness about
the injuries she found on Kyllie and the effect those
injuries would have had on that child. Second, I disagree with the statements made by the majority concerning the facts of this case and that Dr. Lakin’s
opinions were the sole basis for guilt. Finally, this trial
was a battle of the experts. Both parties proffered experts witnesses offering different opinions. Those experts were vigorously cross examined by each side. The
jury heard both experts’ testimonies and arguments of
the parties as to their opinions and found contrary to
Josh’s. This Court should not now second guess that
battle of the experts only because Josh argues on appeal that one expert was unreliable while his expert
was reliable. For these distinct reasons, I respectfully
dissent.
I.

Dr. Lakin’s Qualifications

¶54. The majority reverses Josh’s conviction because
it finds that Dr. Lakin was unqualified to testify based
on the unreliability of the science used to form her
conclusions. I disagree. Before this Court summarily

App. 90
announces Dr. Lakin’s opinions as unreliable, a review
of her qualifications is essential. Dr. Lakin is a medical
doctor practicing in the specialty of pediatrics. She is
licensed as a pediatrician in both Tennessee and Mississippi. She has an undergraduate degree from Duke
University, a graduate degree in public health from the
University of North Carolina at Chapel Hill, and a
medical degree from East Carolina University Medical
School. She completed her residency in pediatrics at Le
Bonheur Children’s Hospital and at the University of
Tennessee. She is Board Certified in the specialty field
of child-abuse pediatrics by the American Academy of
Pediatrics, which requires an examination and a prolonged period of practice in the field. She has practiced
pediatric medicine for many years and presently
serves as the director of Le Bonheur Children’s Hospital. Dr. Lakin is currently an assistant professor of pediatrics at the University of Tennessee and a general
practicing physician in Tennessee and Mississippi. Dr.
Lakin was recognized in the field of pediatrics through
her invitation only induction to the Helfer Society,
which is a nonprofit honorary society for child abuse
pediatricians. Dr. Lakin’s professional background included working for the Raleigh Group in Memphis,
Tennessee, and practicing as a general pediatrician at
the University of Tennessee. Dr. Lakin began assisting
the primary child-abuse physician at Le Bonheur Hospital in 1999, and she later became the medical director for the Le Bonheur Cares Team in 2006.
¶55. Dr. Lakin testified that she has lectured “extensively” on abusive head trauma (AHT). As discussed

App. 91
above, she is an assistant professor of pediatrics at the
University of Tennessee, which requires her to maintain up-to-the-minute knowledge of her field in order
to speak to groups and lecture her students. She is a
member of the American Academy of Pediatrics and
the Tennessee Academy of Pediatrics. She serves on
the Shelby County Child Fatality Review, which was
an advisory committee for the State of Tennessee’s Department of Children Services. She also worked with a
state-wide advisory committee that handled child
abuse exclusively in Shelby County, Tennessee. Finally
Dr. Lakin has been named as one of the “Best Doctors”
between the years 2002 to 2013, and was a 21st Century Scholar in the Department of Preventative Medicine. She has also received awards for cancer work and
a medical humanities award.
¶56. Dr. Lakin has been recognized as an expert and
testified as an expert in child-abuse pediatrics for both
the prosecution and the defense in “over a hundred”
cases in Arkansas, Tennessee, Missouri, and Mississippi. Notably, she was never refused as an expert in
those cases. Dr. Lakin has been recognized by courts
all over this state, time and time again, as an expert
physician with a specialty in the area of child abuse.
There are numerous cases where she has testified similarly to the issues in this case, and those cases were
affirmed by this Court and the Mississippi Supreme
Court.13 To say the trial court abused its discretion in
13

In Middleton v. State, 980 So. 2d 351 (Miss. Ct. App. 2008),
this Court recognized that Dr. Lakin’s “testimony regarding child
trauma and abuse was appropriate, and the trial court did not err

App. 92
its gatekeeper function now when she has been recognized as such an expert in four states and affirmed as
such expert by the appellate courts of this state, is a
stretch of legal significance and has far reaching ramifications in child-abuse cases. To find her testimony
unreliable after a career of studying, treating, and
teaching child abuse cases raises reliability hurdles so
high as to essentially make it impossible to know with
certainty what is the rule and what is the exception. I
would find the circuit court did exactly what the supreme court has ask that the courts do. Specifically, I
would find that the circuit court did not abuse its discretion in finding Dr. Lakin imminently qualified to
in allowing her testimony.” Id. at 359 (¶31). The majority claims
that “any reliance on similarities with Dr. Lakin’s prior testimony
in Middleton is misplaced.” I wholeheartedly disagree for two distinct reasons. First, this Court has held that Dr. Lakin is qualified
as an expert in her field. Second, in that case, the defendant argued that SBS was not a “generally accepted theory in the medical
community,” and we were charged with considering that argument. Id. at 356 (¶17). In Middleton, we found that the experts
presented at trial, including Dr. Lakin, were able to testify to “the
types of injuries present and clearly indentif [y] their basis for concluding the injury was most likely cause by adult intervention.”
Id. at 356 (¶20).
Also, in Isham v. State, 161 So. 3d 1076 (Miss. 2015), Dr.
Lakin testified that a abused child showed signs of similar hemorrhages to Kyllie and that these “were consistent with abusive
head trauma.” Id. at 1080 (¶17). While the supreme court overturned Isham’s conviction because he was not afforded an opportunity to hire an expert witness to rebut Dr. Lakin’s testimony,
the supreme court noted that it was only because “the trial court
deprived Isham of his right to a fair trial when it denied him funds
to procure opposing experts.” Id. at 1084 (¶38). The supreme court
did not make any mention of Dr. Lakin’s inability to issue such
an expert opinion.

App. 93
render an expert opinion about Kyllie’s injuries. Further, I would find that the opinions rendered by Dr.
Lakin were not unreliable, untested, or unscientific. In
sum, her opinions were based on what type of injuries
Kyllie had, what symptoms would come from those injuries, and what someone with Kyllie’s injuries could
or could not do.
II.

Admissibility of Dr. Lakin’s Opinions

¶57. The majority takes issue with Dr. Lakin’s analysis and conclusions concerning the window of time
that Kyllie’s injuries could have occurred. The majority
reasons that the science behind Dr. Lakin’s conclusions
is flawed. As a result, the majority finds that Dr. Lakin
inappropriately testified to the range of time in which
Kyllie was injured. I disagree.
¶58. The State presented an abundance of evidence
about Kyllie’s injuries to the jury. Those injuries were
extensive. Dr. Lakin walked the jury through each and
every injury that the child presented at Le Bonheur
Children’s Hospital. The four month old suffered a cerebral edema, otherwise known as swelling of the brain.
Her CT scan also indicated she had a subdural hemorrhage, along with a intraventricular and intraparenchymal hemorrhage. Both of these injuries, in layman’s
terms, result from bleeding in different parts of the
brain. Dr. Lakin testified that not only was Kyllie’s
brain bleeding, but the brain tissue was also bruised.
Kyllie’s eye exam revealed bilateral retinal hemorrhages that Dr. Lakin testified were particularly

App. 94
significant “because the more extensive the hemorrhages are, then the more they correlate with the
acceleration/deceleration type injuries.” The child also
presented with what physicians thought to be a right
healing clavicle fracture and healing fractures on her
right and left ribs. Dr. Lakin testified that there were
no external injuries to Kyllie’s head, which could have
indicated a fall and was the defense’s alternative theory. Dr. Lakin found that the swelling of Kyllie’s brain
is what ultimately caused her death.
¶59. On direct examination, Dr. Lakin described for
the jury what injuries of this nature would have symptomatically produced:
Q. After receiving these fatal injuries, would
Kyllie have been able to function?
A. No. Well, when you say function, her – her typical activities, which are not a whole lot of activities in a four-month-old, but would not be
considered normal, no.
Q. In other words, her – well, I won’t put it in
other words. But would she have been able to
cry –
A.

No.

Q. – after suffering these injuries?
A. Not – no.
Q. Okay.
A. Probably during the event, but no – she would
lose consciousness very quickly.

App. 95
Q. Would she have been able to eat or be fed?
A.

No.

It is important to note that Dr. Lakin never pinpointed
an exact time that the child was harmed. She did not
provide an arbitrary time-stamp of guilt, which I think
is what concerns the majority. Dr. Lakin instead explained that based on the statements Josh made to the
medical team treating his daughter, Kyllie was acting
normally when she ate around 5:00 p.m. but was gasping for air around 5:30 p.m. when Bethany arrived at
the house. On direct examination, her testimony was
further explained as follows:
Q. Based on the history given to you – and you
remember I asked you early on to the parameters of what I would ask you to base your answers on early on in this examination. Based
on those factors and the history given to you,
do you have an opinion to a medical certainty
as to a range of time when these injuries
would have been received by Kyllie Clark?
A. Based on the history that was given to me, it
would have to be sometime between her most
recent normal activity, it would be sometime
after her most recent normal activity to the
time when she was found unconscious. And so,
in my experience, the symptoms are immediate.
Q. And the last time of normal activity, as given
to you in the history, was?
A. 5:00 when she ate.

App. 96
Dr. Lakin was merely testifying to what Josh reported
to her, not giving an expert medical opinion that the
injury happened at a certain time. Her medical opinion
was that this child could not act normally with the injuries she found. That opinion is certainly within her
medical expertise and was fully cross examined by the
defense. To further show that she did not do what Josh
claims, consider the following which occurred on direct
examination:
Q. And so you’re not saying who committed the
abuse?
A. That’s correct.
Q. And you’re just diagnosing it as that?
A. That’s correct.
It is clear from this exchange that Dr. Lakin was not
pointing a finger of guilt at anyone in particular. In
fact, when the above two exchanges on direct examination are read together, along with her other testimony
about the types of injuries Kyllie had, it is clear that
she was merely repeating the time frame Josh gave her
and not saying that Josh committed this crime because
of that time frame. On cross examination, Dr. Lakin
explicitly testified five different times that she could
not say “who” caused the injuries found on Kyllie. That
is a major distinction that should be taken into consideration when evaluating the reliability of Dr. Lakin’s
opinions at trial. Josh’s argument that she eliminated
everyone except him is simply not true. She stated she
could not say who committed the abuse.

App. 97
¶60. Dr. Lakin concluded that Kyllie was a victim of
abusive head trauma based on the history Josh gave
her, along with the injuries discussed above. At the
Daubert hearing, Dr. Lakin told the court that the severity of the injury was crucial in determining the timing of the injuries themselves. At trial, Dr. Lakin
consistently testified that “the more severe the injury,
the closer in time it is as to when it has occurred.”
¶61. Further, when someone has a severe brain injury, as was seen in this case, that person cannot function normally (i.e., eating, breathing, etc.). On direct
examination, Dr. Lakin told the jury that she would not
have expected Kyllie to eat “at all” with a head injury
of this magnitude. The majority claims that Dr. Lakin
contradicted herself on cross examination when she
told the jury that she “could not determine the exact
time of Kyllie’s injuries.” That is exactly what Dr. Lakin
testified to on direct examination. Her expert medical
opinion was expressed during cross examination as follows:
I’m not saying that you can put it down to a
couple of hours based on the radiological data
or the path – the autopsy findings. What I’m
saying is that the – there is literature talking
about the fact that a severe head injury would
not – the child would not have an absence of
symptoms and develop [the symptoms] later.
And the more severe the injury, the more
likely it is the shorter period of time because
they can’t survive.

App. 98
Dr. Lakin simply explained that a child would display
symptoms more quickly, depending on the severity of
the injury.
¶62. Based on Dr. Lakin’s training, education, and
experience, she was certainly qualified to render that
opinion. Dr. Lakin did not make up the times. She did
not formulate her conclusions based on some unreliable expert opinion. Her opinions, as presented to the
jury, were supported by Josh’s statements to her concerning Kyllie’s history and the axiomatic medical
doctrine that the more severe the injury the quicker
one would see symptoms.
III. Additional Evidence of Guilt Presented to the
Jury
¶63. The majority complains, in an effort to heighten
the seriousness of the alleged error by the circuit court,
that the State relied “solely on the basis of Dr. Lakin’s
expert testimony” and that Josh was found guilty of
second-degree murder as a result of that testimony. I
disagree that Dr. Lakin’s opinions were the sole basis
for a jury conviction. While it may be true that Dr.
Lakin’s testimony explained the science behind
Kyllie’s cause of death and her functionality in the moments leading up to it, the jury was still presented with
a myriad of evidence from both the State and the defense to support a conviction.
¶64. One of the most crucial pieces of evidence given
to the jury was Josh’s sworn statement. The statement,
which Officer John Hillhouse took the day after Kyllie

App. 99
died, was entered into evidence and read into the record
at the trial. Josh testified that the statement and the
facts contained within were “as accurate as [he could]
recall.” The statement indicated that Bethany was
asleep until around 2:00 p.m. on January 5, 2008.
Bethany, Morgan, and Haley went to run errands while
Josh stayed home with the twin babies. The babies
were fed and burped and, according to Josh, were “being good.” Josh then sat Kyllie in an arm chair while
he played video games. After a little time had passed,
Josh went to the restroom for “thirty seconds.” When
he returned, he stated that he noticed “[Kyllie] made a
gasping sound before [Bethany] got home.” This occurred five to ten minutes before Bethany returned.
Kyllie gasped more than once during that time period.
During his testimony at trial, Josh told the jury that
“[he] never assumed that anything was wrong with
Kyllie” while she was struggling to breathe. Once Bethany and the children got home, instead of immediately
calling 911, Josh took Kyllie to the bedroom.
¶65. The jury also heard the testimonies of Bethany
Clark and Haley Parker. Bethany specifically outlined
her observation of Josh’s reaction to their daughter’s
condition. Bethany testified that when she returned
home from running errands, Haley immediately
dropped her bags at the door and said, “[O]h, my god,
what happened?” Bethany walked through the door of
the home and saw Kyllie lying in the corner of the recliner next to Josh. Josh was playing a video game
while the four month old “was gasping for breath,” and
Bethany immediately knew something was wrong.

App. 100
Bethany told the jury that her daughter’s eyes were
“clouded over” and that she could see “nothing in
[Kyllie’s] face.” The scenario that Bethany described
next is chilling:
A. And I said, What happened? He said, Nothing.
I said, She’s got to go to the doctor. He said,
She’s fine. I said, No, she’s not. And he picks
her up and he’s holding her, and her body is
just limp. And he walks to the back.
Q. All right. Tell me what happened once he –
once he picked up the baby, I believe you said
he headed to the back of the home?
A.

Yeah, he went to the bedroom. He was headed
to our room at the end of the trailer, and I followed him back there. And he went to lay her
down, and I went to get her. As soon as I went
to get her, he come back and he was, like, No.
He didn’t want me to get her. And I was, like,
I got to take her. And he’s, like, No, she’s fine.
And I had to push him off so I could take her.
And I got to the living room, and I hit the floor
and I started CPR.

The evidence presented to the jury was that Kyllie’s
condition was so dire that Bethany had to immediately
begin CPR once she finally was able to pry Kyllie away
from Josh.
¶66. Haley Parker, who lived with Josh and Bethany
at the time, described a similar scenario for the jury.
When she arrived home with Bethany, Haley saw that
Kyllie “had one eye that looked like it was, like closed,
and one eye open.” She told the jury that Kyllie “would

App. 101
take one little breath, and then it would stop,” and that
the child was “gasping for air.” She saw Josh pick the
child up and take Kyllie to the bedroom. During this
whole time, Haley testified that Josh kept saying “she’s
fine” and that “[s]he’s been doing that all day.”
¶67. Before the jury ever heard from Dr. Lakin, they
were given Josh’s sworn statement, the testimony of
Officer Hillhouse about how that statement was acquired, and Bethany’s testimony that detailed Josh’s
strange actions once Kyllie began to exhibit symptoms
of distress. After hearing all of this evidence, the jury
then heard Dr. Lakin’s testimony. During her cross examination, Dr. Lakin told the court that the history obtained from the parents was the first step in any
diagnosis. Dr. Lakin testified that based on the “history
obtained from the parents, [Kyllie] had been at home
and had been in the care of [Josh].” That history also
included the following facts:
And there were three other children, I believe,
that were in the home at the time. [Kyllie] was
playing – by history, [Kyllie] was playing
around 3:00 p.m. in a playpen, and she was
four months old and also had a twin. All the
children were fed. The twins were fed formula
and cereal around 5:00 p.m. And [Josh] reported to us that [Kyllie] gasped. And around
5:30, the mother came home with two other
friends, and they noticed that [Kyllie] was
having difficulty breathing.
¶68. The defense put forth the theory that Kyllie’s
death was caused by being dropped, which could have

App. 102
occurred before Kyllie was in Josh’s sole care. The defense’s expert, Dr. Shuman, testified that the injuries
seen in Kyllie did not automatically indicate shaking
had occurred. Furthermore, Dr. Shuman testified that
resuscitation efforts, like performing CPR, can make
some of the injuries, like Kyllie’s retinal hemorrhages,
more pronounced. The jury heard Dr. Shuman’s testimony and was able to consider a clear alternative to
Dr. Lakin’s conclusion of AHT.
¶69. Daubert made clear that “[v]igorous cross examination, presentations of contrary evidence, and
careful instruction on the burden of proof are the traditional and appropriate means of attacking shaky but
admissible evidence.” McLemore, 863 So. 2d at 36 (¶12)
(citing Daubert, 509 U.S. at 595-96, 113 S.Ct. 2786).
This statement, I suspect, was designed to calm the
nerves of trial lawyers and judges in knowing that the
familiar tools of cross examination and presentation of
contrary evidence were still available despite the new
rule of admission of expert testimony. After McLemore,
it is clear that the parties are still allowed to attack the
opposing expert’s opinions and call their own experts
in that effort. Galloway v. State, 122 So. 3d 614, 632
(¶¶27-28) (Miss. 2013). The only limitation on that effort is that the expert must be properly qualified, their
opinions sufficiently reliable, and the testimony relevant to the issues in the litigation. Id. That is exactly
what happened in this trial.
¶70. The defense extensively cross examined Dr.
Lakin about her opinions and how she came to her conclusions. The defense went through articles and other

App. 103
expert opinions questioning the type of injuries that
Dr. Lakin found in this case. The defense presented
every possible explanation for Kyllie’s death besides
SBS. They exhaustively cross examined Dr. Lakin
about Kyllie’s symptoms, other possible causes of those
symptoms, other medical explanations of those symptoms, and their own expert’s theories. As if that was
not enough, on cross examination the defense went further. They even asked Dr. Lakin about her own divorce,
psychological projection, past lawsuits, times she had
previously testified in a case where a former Tennessee
Assistant District Attorney had been fired, and papers
that she had published concerning the topics of SBS.
To say this was a lengthy cross examination does not
do justice to the vigor to which it was carried out. I do
not fault the defense for this. In fact, I commend the
defense for performing an essential and necessary trial
function that, more often than not, allows the truth to
surface. In addition to that lengthy and thorough cross
examination of the State’s expert witness, the defense
offered its own expert witness who gave contrary opinions to Dr. Lakin and presented alternative theories of
injuries.
¶71. The majority notes in footnote nine that this
abundance of evidence is “speculative, at best.” Respectfully, I disagree. The testimony and evidence presented to the jury was theirs to consider. The circuit
court instructed the jury to make their decision “based
on the evidence and the law and not upon speculation,
guesswork or conjecture.” Here the jury did just that
and found Josh guilty of killing Kyllie. This Court

App. 104
should not second guess a jury verdict and imply prejudice by the State’s expert when the whole trial was a
battle of the experts and the defense not only fully
cross examined Dr. Lakin but also was allowed to introduce its own contrary expert testimony to the jury.
¶72. At that point, the decision was in the hands of
the jury. It is not the job of this Court to overlook the
entirety of the evidence presented before the jury and
overturn a conviction because there is “some disagreement” in the medical community about an issue that
was fully vetted in front of the jury. The jury determines the factual issues in dispute in a trial and prescribes the credibility or not of the witnesses who
testified before the jury. Because I believe that the circuit court appropriately performed its function as a
gate keeper in determining Dr. Lakin’s expertise and
the reliability of her opinions, and because there is no
evidence to suggest the circuit court abused its discretion in that process, I would affirm Josh’s conviction.
BARNES, C.J., AND CARLTON, P.J., JOIN THIS
OPINION.

App. 105
IN THE CIRCUIT COURT OF
ITAWAMBA COUNTY, MISSISSIPPI
STATE OF MISSISSIPPI
NO. CR08-031
COUNT 1

VS.
JOSHUA ERIC HAWK CLARK
ORDER
(Filed Mar. 3, 2017)

This day into open Court came the Defendant,
JOSHUA ERIC HAWK CLARK, and his Attorney,
DAN WEBB AND JIM WAIDE, and the Defendant
having been found guilty of SECOND DEGREE
MURDER by a jury in this cause on a former day of
this Court, and said Defendant now being before the
Court for sentence.
Therefore, for said offense and on said verdict of
the Jury of guilty of SECOND DEGREE MURDER
it is hereby ORDERED AND ADJUDGED that the
said JOSHUA ERIC HAWK CLARK be and he/she is
hereby sentenced to serve a term of Forty (40) years
in the custody of the Mississippi Department of
Corrections at a facility to be designated
Defendant shall pay court cost.
Defendant is remanded to the custody of the ITAWAMBA County Sheriff’s Department to await
transportation.

App. 106
ORDERED AND ADJUDGED, this the 3rd day of
March, 2017.
/s/ Thomas J. Gardner
CIRCUIT COURT JUDGE

App. 107
VERBAL ORDER DENYING POST-TRIAL MOTION IN STATE OF MISSISSIPPI V. JOSHUA
ERIC MAWK CLARK, ITAWAMBA COUNTY CIRCUIT COURT NO. CR08-4031 (03/03/2017)
*

*

*

[1359] THE COURT: I think the record will
indicate that this Court has, because of the – what I
thought to be the necessity in order that the defendant
have a fair disposition of the charge against him, set
aside a plea of guilty and put the matter back on the
docket for trial and all that followed.
I am not insensitive to the fact that there may be
some difficulty or some difference of opinion about that
which is called shaken baby syndrome. I – it is probably a bad choice of words that has resulted in no telling
what. I think that the testimony of the doctors who
[1360] testified in this case were certainly diametrically opposed as to the involvement of this defendant
and what happened.
All this was done in the presence of the jury, subject to cross-examination, argument by the attorneys.
And ultimately, I consider the evidence introduced by
the State sufficient to submit the matter to the jury for
their consideration and determination.
As all of you know, that is not my role. I do not
determine guilt or innocence. That is a matter for the
jury having heard the evidence and being instructed to
make a decision about guilt or innocence.

App. 108
The fact that the jury found in their verdict that
he was not guilty of capital murder is not dispositive of
anything, in my opinion. In the next breath they expressed their finding that he was guilty of second-degree murder and found him such.
I consider that that is, if nothing else, a lesser-included offense of capital murder. So I find no reason in
the world to set aside the judgment of the jury in this
case, their verdict, and to grant a new trial. The motion
for a new trial will be denied.
Defendant, if you have any other – I have looked
at a number of things raised in the briefing and your
motions and so forth. I have [1361] not addressed all of
those, but I think that that is sufficient unto the question.
*

*

*

App. 109
VERBAL ORDER DENYING MOTION FOR DIRECTED VERDICT IN STATE OF MISSISSIPPI
V. JOSHUA ERIC HAWK CLARK, ITAWAMBA
COUNTY CIRCUIT COURT NO. CR08-031 (08/13/2016)
*

*

*

[1238] THE COURT: The motion of the defendant will be denied. The Court is of the opinion that
the question concerning whether or not there is a valid
theory or hypothesis upon which the defendant might
be found guilty is for the jury to decide, not for the
Court. Therefore, I’m going to submit the matter to the
jury for [1239] their determination.
*

*

*

App. 110
IN THE CIRCUIT COURT OF
ITAWAMBA COUNTY, MISSISSIPPI
STATE OF MISSISSIPPI
VS.

CAUSE NO.
CR08-031-g-1

JOSHUA ERIC HAWK CLARK

DEFENDANT

ORDER
(Filed Aug. 24, 2015)
THIS CAUSE is before the Court on the Defendant Joshua Eric Hawk Clark’s Motion to Exclude Expert Testimony as to Time Injuries were Inflicted. The
Court finds that the motion is not well taken and
therefore shall be DENIED.
IT IS THEREFORE ORDERED AND ADJUDGED that the Defendant Joshua Eric Hawk
Clark’s Motion to Exclude Expert Testimony as to the
Time Injuries were Inflicted shall be DENIED.
SO ORDERED AND ADJUDGED this the 20
day of August, 2015.

/s/ Thomas J. Gardner
THOMAS J. GARDNER, III
CIRCUIT JUDGE

App. 111
Supreme Court of Mississippi
Court of Appeals of the State of Mississippi
Office of the Clerk
D. Jeremy Whitmire
Post Office Box 249
Jackson, Mississippi
39205-0249
Telephone: (601) 359-3694
Facsimile: (601) 359-2407

(Street Address)
450 High Street
Jackson, Mississippi
39201-1082
e-mail: sctclerk@
courts.ms.gov

May 6, 2021
This is to advise you that the Mississippi Supreme
Court rendered the following decision on the 6th day of
May, 2021.
Supreme Court Case # 2017-CT-00411-SCT
Trial Court Case # CR08-031
Joshua Eric Hawk Clark a/k/a Joshua Clark v. State of
Mississippi
The Motion for Rehearing filed by Appellant is denied.
Kitchens and King, P.JJ., and Coleman, J., would
grant.
* NOTICE TO CHANCERY/CIRCUIT/
COUNTY COURT CLERKS *
If an original of any exhibit other than photos was sent
to the Supreme Court Clerk and should now be returned to you, please advise this office in writing immediately.
Please note: Pursuant to MRAP 45(c), amended
effective July, 1, 2010, copies of opinions will not
be mailed. Any opinion rendered may be found

App. 112
by visiting the Court’s website at: https://courts.
ms.gov, and selecting the appropriate date the
opinion was rendered under the category “Decisions.”

App. 113
MISSISSIPPI SUPREME COURT
NO. 2017-KA-00411-COA
JOSHUA ERIC HAWK CLARK

APPELLANT

VS.
STATE OF MISSISSIPPI

APPELLEE

APPEAL FROM THE CIRCUIT COURT OF
ITAWAMBA COUNTY, MISSISSIPPI
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

APPELLANT’S MOTION FOR REHEARING
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

JIM WAIDE,
MS BAR NO. 6857
WAIDE &
ASSOCIATES, P.A.
332 NORTH
SPRING STREET
TUPELO, MS 38804-3955
POST OFFICE BOX 1357
TUPELO, MS 38802-1357
(662) 842-7324 /
TELEPHONE
(662) 842-8056 /
FACSIMILE
EMAIL: waide@
waidelaw.com
DANIEL M. WAIDE,
MS BAR NO. 103543
JOHNSON, RATLIFF

DAN W. WEBB,
MS BAR NO. 7051
WEBB SANDERS &
WILLIAMS, PLLC
363 NORTH
BROADWAY STREET
TUPELO, MS 38804-3925
POST OFFICE BOX 496
TUPELO, MS 38802-0496
(662) 844-2137 /
TELEPHONE
(662) 842-3863 /
FACSIMILE
EMAIL: dwebb@
webbsanders.com

App. 114
& WAIDE, PLLC
POST OFFICE BOX 17738
HATTIESBURG, MS 39404
(601) 582-4553 /
TELEPHONE
(601) 582-4556 /
FACSIMILE
EMAIL: dwaide@
jhrlaw.net
ATTORNEYS FOR APPELLANT
TABLE OF CONTENTS
TABLE OF CONTENTS ......................................

ii

TABLE OF AUTHORITIES .................................

iv

INTRODUCTION ................................................

1

ARGUMENT I .....................................................

1

BECAUSE THE TRIAL COURT JUDGE EXPRESSLY ADMITTED THAT HE LEFT THE
DAUBERT-MCLEMORE GATEKEEPING RESPONSIBILITY TO THE JURY, THIS COURT
SHOULD RECONSIDER ITS REVERSAL OF
THE COURT OF APPEALS AND, INSTEAD,
SHOULD AFFIRM THAT COURT’S OPINION.
ARGUMENT II .................................................... 15
THE STATE’S FAILURE TO PROVE CLARK’S
GUILT BEYOND A REASONABLE DOUBT
VIOLATED HIS UNITED STATES CONSTITUTION AMENDMENT FOURTEEN DUE
PROCESS RIGHTS.

App. 115
CONCLUSION..................................................... 20
CERTIFICATE OF SERVICE ............................. 22
APPENDICES:
Opinion (Clark v. State, ___ So.3d ___, 2021 WL
401324
(Feb. 4, 2021, Miss. 202 1)) ................ APPENDIX “A”
List of Articles submitted at Daubert hearing ...................................................... APPENDIX “B”
List of Scientific Articles Arranged by Topic Provided by Defense Counsel During Trial and
Post-Trial ........................................... APPENDIX “C”
Letters From Waide to Dr. Karen Lakin ...APPENDIX “D”
Dr. Mark LeVaughn’s Letter Dated August 9,
2016 ................................................... APPENDIX “E”
Joshua Clark’s Statement to Law Enforcement
dated January 8, 2008 ...................... APPENDIX “F”
Affidavit of Dr. Mark Shuman, and Exhibit A
thereto ...............................................APPENDIX “G”
Affidavit of Dr. Karen Chancellor, with attached
Certificate of Death .......................... APPENDIX “H”
TABLE OF AUTHORITIES
STATE CASES:
BB Buggies, Inc. v. Leon, 150 So. 3d 90 (Miss.
2014) ..........................................................................2
Clark v. State, ___ So. 3d ___, 2021 WL 401324
(Miss. 2021) ..................................................... passim

App. 116
Edmonds v. State, 955 So. 2d 787 (Miss. 2007) ............4
Ex parte Henderson, 384 S.W.3d 833 (Tex. Crim.
App. 2012) ................................................................16
Flowers v. State, 240 So. 3d 1082 (Miss. 2017),
rev’d and remanded on other grounds, 139
S. Ct. 2228 (2019) ......................................................5
Hampton v. State, 2021 WL 218983 (Miss. 2021) .......15
Hill v. Mills, 26 So.3d 322 (Miss. 2010) ........................5
Howard v. State, 300 So. 3d 1011 (Miss. 2020) ..........19
Liberty Mut. Ins. Co. v. State ex rel. Hood, 277 So.
3d 542 (Miss. 2019) .................................................14
Mississippi Transp. Comm’n v. McLemore, 863
So. 2d 31 (Miss. 2003)................................. 1, 4, 13-14
Parvin v. State, 113 So. 3d 1243 (Miss. 2013) .......... 4-5
Patterson v. Tibbs, 60 So. 3d 742 (Miss. 2011) .............5
People v. Bailey, 999 N.Y.S.2d 713 (Co. Ct. 2014),
aff ’d, 41 N.Y.S.3d 625 (2016)................................. 8-9
Safeco Ins. Co. of Am. v. State ex rel. Hood, 2019
WL 3955084 (Miss. 2019)........................................14
Sherwin-Williams Co. v. Gaines ex rel. Pollard,
75 So. 3d 41 (Miss. 2011)...........................................5
Steele v. State, 544 So. 2d 802 (Miss. 1989) ................15
Watts v. Radiator Specialty Co., 990 So. 2d 143
(Miss. 2008) ...............................................................5

App. 117
FEDERAL CASES:
Brown v. Ill. Cent. R.R. Co., 705 F.3d 531 (5th
Cir. 2013) ...................................................................4
Carlson v. Bioremedi Therapeutic Sys., Inc., 822
F.3d 194 (5th Cir. 2016) .............................................2
Daubert v. Merrell Dow Pharm., Inc., 509 U.S.
579 (1993) ........................................................ passim
Del Prete v. Thompson, 10 F. Supp. 3d 907 (N.D.
Ill. 2014)..........................................................6, 16-17
Dodge v. Cotter Corp., 328 F.3d 1212 (10th
Cir.2003) ....................................................................3
Garner v. State of La., 368 U.S. 157 (1961) ................18
Geiger v. Monroe Cty., Mississippi, 2020 WL
5255403 (N.D. Miss. 2020) .................................... 3-4
In re Winship, 397 U.S. 358 (1970) .............................18
Markman v. Westview Instruments, Inc., 517 U.S.
370 (1996) ..................................................................6
Moore v. Texas, ___ U.S. ___, 137 S. Ct. 1039
(2017) .......................................................................19
Rodriguez v. Riddell Sports, Inc., 242 F.3d 567
(5th Cir. 2001)............................................................2
Sandstrom v. Montana, 442 U.S. 510, 524 (1979),
holding modified by Boyde v. California, 494
U.S. 370 (1990) ........................................................18
Smith v. Jenkins, 732 F.3d 51 (1st Cir. 2013)...............2
United States v. Avitia–Guillen, 680 F.3d 1253
(10th Cir. 2012)..........................................................3
United States v. Frazier, 387 F.3d 1244 (11th Cir.
2004) ..........................................................................2

App. 118
United States v. Hall, 93 F.3d 1337 (7th Cir.
1996) ..........................................................................3
United States v. Roach, 582 F.3d 1192 (10th Cir.
2009) ..........................................................................3
STATUTES:
MISS. R. CIV. P. 53 .......................................................14
OTHER AUTHORITIES:
David L. Faigman et. al., Group to Individual
(G2i) Inference in Scientific Expert Testimony,
81 U. Chi. L. Rev. 417 (2014) .....................................8
Keith A. Findley et. al., Feigned Consensus:
Usurping the Law in Shaken Baby Syndrome/
Abusive Head Trauma Prosecutions, 2019 Wis.
L. Rev. 1211 (2019) ............................................ 12-13
Monica Mears, Child Abuse Pediatrics: The “Science” of Arrogance .....................................................6
Vincent J. DiMaio, et al., Forensic Pathology (2d
ed. 2001) ..................................................................10
[1] INTRODUCTION
Appellant Joshua Eric Hawk Clark (“Clark”)
moves this Court to reconsider its five (5) to four (4)
reversal of the Mississippi Court of Appeals in the
opinion attached as Appendix A.

App. 119
ARGUMENT I.
BECAUSE THE TRIAL COURT JUDGE
EXPRESSLY ADMITTED THAT HE LEFT
THE DAUBERT-MCLEMORE GATEKEEPING RESPONSIBILITY TO THE JURY,
THIS COURT SHOULD RECONSIDER
ITS REVERSAL OF THE COURT OF APPEALS AND, INSTEAD, SHOULD AFFIRM THAT COURT’S OPINION.
This Court’s plurality opinion correctly concedes
that the Daubert1-McLemore2 gatekeeping responsibility belongs to the judge, and not to the jury:
It is the task of the trial court to make a “preliminary assessment of whether the reasoning or methodology underlying the testimony
is scientifically valid and of whether the reasoning or methodology properly can be applied to the facts in issue.” Daubert, 509 U.S.
at 592-93. . . .
Clark v. State, ___ So.3d ___, 2021 WL 401324, at *4
(Miss. 2021) (Plurality Opinion) (emphasis added); Appendix A.
That opinion was mistaken, however, to find that
in this case “the trial judge properly performed his role
as gatekeeper. . . . ” Clark, 2021 WL 401324, at *3. This
finding is incorrect, because the trial judge himself

1

Daubert v. Merrell Dow Pharm., Inc., 509 U.S. 579 (1993).
Mississippi Transp. Comm’n v. McLemore, 863 So. 2d 31
(Miss. 2003).
2

App. 120
expressly admitted that he was leaving the gatekeeping function to the jury. The trial judge stated:
The Court is of the opinion that the question concerning whether or not there is
a valid theory or hypothesis upon which
the defendant might be found guilty is
for the jury to decide, not for the Court.
[2] T, p. 1238 (emphasis added).
Nowhere in the record does the trial judge find
that the State’s expert pediatrician’s theory of Shaken
Baby Syndrome (“SBS”) was “scientifically valid,” nor
does the trial judge ever find that the expert’s “reasoning or methodology properly can be applied to the facts
in issue.” Clark, 2021 WL 401324, at *4, citing Daubert,
509 U.S. at 592-93.
The plurality opinion did correctly state that “Mississippi Rule of Evidence 702 is identical to Rule 702
of the Federal Rules of Evidence,” Clark, 2021 WL
401324, n. 2, and this Court “often consider[s] federal
authority when construing similar rules.” BB Buggies,
Inc. v. Leon, 150 So. 3d 90, 96 (Miss. 2014).
A host of federal authorities hold that trial courts
commit reversible error when those courts fail to meet
their Daubert duty of articulating the validity of the
underlying theory and demonstrating that the particular theory applies to the facts of the case. For example, Carlson v. Bioremedi Therapeutic Sys., Inc., 822
F.3d 194, 201 (5th Cir. 2016), held: “At a minimum, a
[trial] court must create a record of its Daubert inquiry

App. 121
and ‘articulate its basis for admitting expert testimony. . . .’ Rodriguez, 242 F.3d at 581.3”
Similarly, Smith v. Jenkins, 732 F.3d 51, 65 (1st
Cir. 2013), reversed a conviction because there were
“no statements on the record indicating that the court
conducted a Daubert analysis.”
United States v. Frazier, 387 F.3d 1244, 1162 (11th
Cir. 2004), too, held: “The trial judge in all cases of proffered expert testimony must find that it is properly
grounded, well-reasoned, and not speculative before it
can be admitted.”
[3] United States v. Hall, 93 F.3d 1337, 1342 (7th
Cir. 1996), reversed because the court found that, from
the record, the court “cannot be confident that the
[trial] court applied the Daubert framework,” when the
trial court “never mentioned Daubert specifically. . . .”
Clark’s case is more extreme than Hall, since the trial
court not only did not “mention[ ] Daubert specifically,”
the trial court expressly disclaimed its gatekeeping
function by stating that whether there was a “valid
theory or hypothesis” was “for the jury to decide. . . .”
T., p. 1238.
The plurality opinion was correct in stating the
basic law, that the trial judge’s Daubert findings are
reviewed for an “abuse of discretion.” Clark, 2021 WL
401324, at *3. Nevertheless, courts “review de novo the
question of whether the [trial] court applied the proper
3

2001).

Rodriguez v. Riddell Sports, Inc., 242 F.3d 567 (5th Cir.

App. 122
standard and actually performed its gatekeeper role in
the first instance.” United States v. Roach, 582 F.3d
1192, 1206 (1 0th Cir. 2009), quoting Dodge v. Cotter
Corp., 328 F.3d 1212, 1223 (1 0th Cir.2003); United
States v. Avitia–Guillen, 680 F.3d 1253 (10th Cir. 2012).
There is nothing in this record for this Court to
review for “abuse of discretion.” The trial court never
made any findings whatsoever, whether through
“magic words” or through plain English, as to whether
SBS is a valid diagnosis and whether it can be reliably
applied to the facts of this particular case or whether
it can be scientifically shown that the injuries occurred
during the short time when Clark had sole custody of
the child.
The plurality opinion departs not only from
the federal authorities previously cited, but from established precedents from federal district courts in
Mississippi. For example, Geiger v. Monroe Cty., Mississippi, 2020 WL 5255403, at *2 (N.D. Miss. 2020),
held:
Under Daubert . . . , a district court has a “special obligation . . . to ensure that any and all
scientific testimony is not only relevant, but
reliable.” . . . “To establish reliability under
Daubert, an expert bears the burden of furnishing some objective, independent [4] validation of his methodology.” Brown v. Ill. Cent.
R.R. Co., 705 F.3d 531, 536 (5th Cir. 2013). . . .
(some citations omitted).

App. 123
The leading decision in McLemore is not the only
case from this Court which the plurality opinion did
not follow. Edmonds v. State, 955 So. 2d 787 (Miss.
2007), reversed a criminal conviction based upon the
opinion testimony of Dr. Steven Hayne, that two (2)
people had pulled the trigger of a firearm that killed a
murder victim. As grounds, this Court held that the
“State made no proffer of any scientific testing performed to support Dr. Hayne’s two-shooter theory.
Therefore, the testimony pertaining to the two-shooter
theory should not have been admitted under our standards.” Edmonds, 955 So. 2d at 792.
In that same opinion, the Edmonds’ Court held
that the trial court had correctly excluded the testimony of a false confession expert because “Dr. Redlich
herself admitted that her theories could not be empirically tested.” Edmonds, 955 So. 2d at 791.
In Clark’s case, the State’s expert, Lakin, has admitted that she is not aware of any error rate in making a diagnosis of SBS. C.P., pp. 645-50. Lakin also
testified that making such a determination would be
impossible since no one is going to shake a baby to determine whether SBS would result. C.P., pp. 646-47. In
other words, the SBS theory has not been tested for
validity or reliability.
Other cases from this Court have held that evidence of reliability must be shown to make an expert’s
testimony admissible. For example, in Parvin v. State,
113 So. 3d 1243, 1249 (Miss. 2013), this Court wrote
that Dr. Hayne’s testimony about the distance from

App. 124
which a gunshot wound was inflicted was not admissible, because it contradicted “generally accepted methods used by forensic [5] firearms experts, . . . .” and
because it was contradicted by “authoritative publications. . . .”
Sherwin-Williams Co. v. Gaines ex rel. Pollard, 75
So. 3d 41, 46 (Miss. 2011), reversed “because the plaintiff ’s experts did not present any scientific authority
that an acute, asymptomatic ingestion of lead could
lead to the alleged injuries. . . .” Likewise, Watts v. Radiator Specialty Co., 990 So. 2d 143, 149 (Miss. 2008),
quoted, with approval, a United States Supreme Court
decision, which held that “nothing in either Daubert or
the Federal Rules of Evidence requires a district court
to admit opinion evidence which is connected to existing data only by the ipse dixit of the expert.”
Patterson v. Tibbs, 60 So. 3d 742, 750 (Miss. 2011),
held that “to allow introduction of expert opinions
which are based upon nothing more than personal experience in cases where those opinions are contradicted in the scientific literature, [ ] would effectively
render Rule 702 and Daubert a nullity,” quoting Hill v.
Mills, 26 So.3d 322, 331 (Miss. 2010).
Flowers v. State, 240 So. 3d 1082 (Miss. 2017),
rev’d and remanded on other grounds, 139 S. Ct. 2228
(2019), emphasized the necessity that “expert testimony must be both relevant and reliable to be admissible.” There, this Court wrote:
To determine reliability, the following nonexhaustive list of factors may be considered:

App. 125
whether the expert’s theory can be or has been
tested; whether the theory has been the subject of peer review and publication; the known
or potential rate of error of the technique or
theory when applied; the existence of standards to control the technique’s operation; and
the general acceptance the theory has garnered in the relevant expert community.
Flowers, 240 So. 3d at 1100.
In this case, not one of these factors was met, nor
did the trial judge cite any other factor which indicated
that Lakin’s expert testimony was reliable.
The plurality’s observation that the courts are “jurists, not scientists,” leaves it for a jury to [6] determine
whether the scientific articles, which the jury has not
even seen, discredit the expert’s testimony. Markman
v. Westview Instruments, Inc., 517 U.S. 370, 384 (1996),
held that in deciding whether a court or a jury should
decide an issue, the court should determine which judicial actor is better positioned than another to decide
the issue in question. Markman, 517 U.S. at 388.
A judge, not a jury, is “better positioned” to examine the scientific articles and to determine whether the
proposed testimony is reliable. The scientific articles
are not admitted into evidence. Therefore, a jury is not
in as good a position as is a judge to determine the reliability of scientific evidence. The trial judge should
have studied the scientific articles, and determined
whether, in light of those articles, the underlying

App. 126
theory was valid and whether it could be reliably applied to the facts of this case.
Some factual basis to support a finding that
Lakin’s theories are “scientifically valid” was especially
necessary in a case involving SBS. SBS has been characterized as “more an article of faith than a proposition
of science.” Del Prete v. Thompson, 10 F. Supp. 3d 907,
958 (N.D. Ill. 2014). Monica Mears, Child Abuse Pediatrics: The “Science” of Arrogance, reduces the SBS diagnosis to layman terms when she writes:
Nowhere is the breakdown of the science of
child abuse pediatrics more vividly displayed
than in the instance of “Shaken Baby Syndrome” (SBS). “An unproven primary hypothesis, crafted around 1975 by a small group of
pediatricians with an interest in child abuse,
lies at the foundation of child abuse pediatrics. With no scientific study, it was hypothesized that subdural hemorrhage (SDH) and
retinal hemorrhage (RH) were diagnostic of
shaking abuse. That hypothesis became the
so-called “shaken baby syndrome.”
. . . [T]hese child abuse specialists . . . represented falsely that there was general acceptance of their hypothesis and therefore it
was valid science.
C.P., pp. 1029, 1030.
At the pretrial Daubert hearing, T., pp. 72-200;
C.P., pp. 562-709,, the State offered no [7] evidence,
other than Lakin’s scientifically-unsupported opinions,
either as to the scientific validity of the SBS diagnosis

App. 127
or as to a method to determine that the injuries at issue were inflicted during the two (2) and a half hour
time period when Clark was alone with his children.
The defense, however, offered scientific evidence
both discrediting SBS as a valid diagnosis, and demonstrating the fact of “lucid intervals” between the time
when the brain and eye hemorrhage first began and
when it first manifested. See Exh. Vol. 1, Articles Notebook D-4 to the Pretrial Hearing.4 In any event, except
for Lakin’s opinion, there was no evidence or scientific
articles showing it could be determined that Kiley’s diagnosed medical conditions occurred during the brief
time Clark was alone with his children. See Exh. Vol.
1, Articles Notebook, Exhibit D-4 to Pretrial Hearings,
beginning on p. 197.
At the Daubert hearing, defense counsel asked
Lakin to “put into the record [articles to demonstrate
her opinions] . . . are generally accepted in either the
community of pediatricians or the community of scientists in general.” T., p. 178. Lakin’s responded that “I
don’t have it with me,. . . .” T., p. 178, but claimed that
there is an “American Academy of Pediatrics position
paper. . . .” T., p. 178. Defense counsel asked Lakin to
supplement the record with whatever articles she had.
T., p. 179. Defense counsel also sent Lakin a series of
4

Unfortunately, the articles which Clark introduced at the
Daubert hearing are not paginated in the record. A listing of the
articles submitted at the Daubert hearing are attached as Appendix B. A listing of all of the scientific articles provided to the
circuit court by defense counsel during trial and post-trial is attached as Appendix C.

App. 128
letters requesting scientific articles supporting her position and sending her more scientific articles relied
upon by defense witness, Dr. Mark Shuman, a forensic
pathologist.5 Exh. Vol. 4, Trial [8] Exhibit List, Exhibit
D-10. A list of the references of Dr. Shuman are attached to defense counsel’s letter to Lakin. Exh. Vol. 4,
Trial Exhibit List, Exhibit D-10.
Lakin testified at trial that she did not submit any
scientific articles because defense counsel was not paying her. T., p. 836.
This Court’s plurality opinion incorrectly relied
upon Lakin’s statement that an American Academy of
Pediatrics’ (“AAP”) report supports her opinion. Clark,
2021 WL 401324, at *5. Lakin never produced that report so the trial court could make a determination that
the “AAP recognizes and accepts SBS/AHT. . . .” Clark,
2021 WL 401324, at *5. An acceptance of a diagnosis
does not prove that the diagnosis fits a particular case,
like Clark’s, which involves pinpointing the injury to a
two (2) and a half hour period and which contains other
reasons for Kiley’s symptoms.
Daubert rejects group approval for specific scientific analysis applicable to the facts of any particular
case. See David L. Faigman et. al., Group to Individual
(G2i) Inference in Scientific Expert Testimony, 81 U.
Chi. L. Rev. 417, 439-40 (2014) (“Daubert, in contrast,
does not place deference to professional fields at the
center of the evidentiary analysis, but instead calls
5

Copies of the letters from defense counsel to Lakin, with
enclosures, are attached as Appendix D.

App. 129
upon judges to independently assess the methods and
principles underlying the proffered opinion in order to
determine its reliability”).
Accepting Lakin’s unsupported statement, that
the “AAP recognizes and accepts SB S/AHT. . . . ,” is
contradicted by People v. Bailey, 999 N.Y.S.2d 713 (Co.
Ct. 2014), aff ’d, 41 N.Y.S.3d 625 (2016), which states:
In 2010, the American Academy of Pediatrics
published a clinical report, entitled, “The Eye
Examination in the Evaluation of Child
Abuse,” which opened with the statement:
Retinal hemorrhage is an important
indicator of possible abusive head
trauma, but it is also found in a number of other conditions.
The Court credits Dr. Galaznik’s testimony
that said statement represented a [9] significant change from the AAP’s 2001 position.
That is, in 2001, retinal hemorrhages were
presumed to indicate rotational head injury.
By 2010, it was recognized that retinal hemorrhages could have multiple causes and be
present in many situations. Therefore, retinal
hemorrhages are non-specific.
Bailey, 999 N.Y. S.2d at 722.
The general statement, unsupported by production of the report itself, that the “AAP recognizes and
accepts SBS/AHT. . . .” diagnosis does not account for
the facts of this case. Even if the “AAP recognizes and
accepts SBS/AHT,” this does not mean that the AAP

App. 130
would apply that diagnosis in a case like this one when
there is no sign of physical trauma, where the State
Medical Examiner, Dr. Mark LeVaughn, explained that
“the time of the subdural hemorrhage cannot be determined,” Exh. Vol. 5, Exhibit D- 18, Trial Exhibit List,6
where there is a history of other potential causes of the
same symptoms as SB S, and where radiology records
describe the hematoma as either subacute or acute on
chronic.
The radiology records show that Kiley suffered
from either a subacute (injury of at least a week old) or
an acute on chronic (injury of over a month old) subdural hematoma. C.P., pp. 172, 182. Based on these radiology records, the State necessarily failed to exclude
the reasonable hypothesis, that Kiley suffered brain
hemorrhaging which began before Clark had exclusive
custody of the child on January 5, 2008; that the slow
brain bleed did not manifest itself until Kiley had
breathing difficulty when Clark had sole custody of Kiley on January 5, 2008; and that the brain area injury
did not become life-threatening until the aggressive
CPR was performed at the Clark’s home, on the way to
the Amory hospital, and at the Amory hospital. See
Joshua Clark’s Statement to Law Enforcement dated
January 8, 2008 at Vol. 2, Exhibit S-2, Trial Exhibit
List, and attached as [10] Appendix F.

6

Dr. LeVaughn’s letter dated August 9, 2016, which was produced for the first time during trial and made an exhibit to a supplement to Clark’s motion for directed verdict or new trial is
attached as Appendix E.

App. 131
At the Daubert hearing, Lakin admitted that she
did not even know about the existence of a standard
textbook, Forensic Pathology,7 which repudiates any
notion that SBS, without evidence of blunt trauma, is
a valid medical diagnosis. C.P., p. 683. This textbook
equates an SBS diagnosis with mythology, quoting
Lewis Carroll, Alice in Wonderland, “ ‘If any one of
them can explain it,’ said Alice, ‘I’ll give him sixpence.
I don’t believe . . . there’s an atom of meaning in it.’ ”
C.P., pp. 683-84.
Dr. Steven Hayne, the pathologist who performed
the autopsy, testified at the Daubert hearing, but not
at trial. Dr. Hayne acknowledged the criticism of the
SBS theory in the standard pathology textbook by DiMaio. C.P., pp. 704-05.
At the conclusion of the Daubert hearing, the trial
judge made no comment as to whether he believed the
State had proved that SBS, without evidence of external trauma, is a valid medical diagnosis, nor did he
comment upon whether such a diagnosis could be applied to the facts of this case where there is evidence
both of previous trauma (Kiley’s having fallen and being stepped on) and evidence of extensive resuscitation
efforts made before Lakin’s nurse practitioner ever
saw Kiley at Le Bonheur Children’s Hospital in Memphis, Tennessee.
When Lakin was tendered as a witness at trial, defense counsel asked the court for a voir dire examination
7

Vincent J. DiMaio, et al., Forensic Pathology (2d Ed. 2001).

App. 132
on the reliability of Lakin’s testimony. T., p. 678. The
trial court responded that he had made a determination that she is “qualified to testify.” T. 679. Of course,
a statement that Lakin is “qualified to testify,” says
nothing about whether the “reasoning or methodology
underlying the [11] testimony is scientifically valid,”
nor does it indicate “whether the reasoning or methodology properly can be applied to the facts in issue.”
Clark, 2021 WL 401324, at *4, quoting Daubert, 509
U.S. at 592-93.
Following the testimony at the trial, the jury entered a verdict of “not guilty of capital murder . . . [and]
guilty of second degree murder.” C.P., pp. 372-73. Clark
then filed a motion for directed verdict or new trial.
C.P., pp. 375-405. In addition to the articles Clark had
already introduced at the Daubert hearing, Articles
Notebook Exhibit D-4, Clark introduced a host of scientific articles discrediting the validity of the diagnosis
and addressing the different alternatives that may
cause the same symptoms as SBS. C.P., pp. 375-446.
While the motion for a directed verdict or new trial was
pending, Clark’s counsel provided four (4) supplements
to his motion, all containing additional scientific articles either discrediting SBS, or discussing lucid intervals, short falls causing injuries having the same
symptoms, and discussing other causes for Kiley’s
symptoms. See C.P., beginning at p. 406, and articles
found at C.P., pp, 449-1014, 1113-1361.
The most significant scientific development in the
case occurred at the hearing on the motion for directed
verdict or new trial. At that hearing, defense counsel

App. 133
brought to the trial court’s attention a new a comprehensive study by the Swedish Agency for Health Technology Assessment and Assessment of Social Services
(“SBU”), which was published after the trial. T., pp.
1357-58. This most recent study at the time of the pretrial hearing, states that “it is not possible. . . .” to conclude that a baby has been shaken based upon the socalled triad of brain and head injuries. C.P., p. 1362.
Attached to a supplement to Clark’s motion for directed verdict or new trial is the affidavit of Dr. Mark
Shuman, the pathologist who was Clark’s expert witness at the trial, who swore:
[12] Based on SBU report and analysis from
this internationally recognized organization,
any alleged scientific basis for the opinions offered by Dr. Lakin at the trial based upon
claims of support from the medical or scientific literature no longer exists. Again, the conclusion of this study was not available at or
before trial. Under no circumstances, given
the conclusions reached in the SBU report,
could any opinion claiming support in scientific medical literature be considered valid.
Affidavit of Dr. Mark Shuman, Exh. Vol. 5, Exhibit D-1
to Sentencing Hearing Exhibit List.
Despite the new post-trial SBU study demonstrating a lack of no current reliable scientific basis for an
SBS diagnosis, the State still did not put into the record any scientific literature supporting Lakin’s theory
of the existence of a valid diagnosis of SBS, nor did it

App. 134
produce scientific articles indicating how such a diagnosis could be applied to the facts of this case.
The significance of this new post-trial SBU study
was described in a law review article, which was published after the hearing on the motion for directed
verdict or new trial. Keith A. Findley et. al., Feigned
Consensus: Usurping the Law in Shaken Baby Syndrome/Abusive Head Trauma [13] Prosecutions, 2019
Wis. L. Rev. 1211 (2019), explains:
The SBU appointed a panel of leading pediatricians and experts in forensic medicine, radiology, medical epidemiology, and medical
and research ethics to undertake a systematic
review of the medical literature to assess the
underlying strength of the SBS hypothesis
and the diagnostic validity of the triad. After
retrieving 3,773 medical papers and identifying 1065 of them as relevant, the SBU found
that only thirty met the inclusion criteria of
potentially providing evidence on the diagnostic value of the triad, and of those, only two
were of moderate quality; none were of high
quality; and all the rest were low quality.
Hence, the SBU concluded, “There is insufficient scientific evidence on which to assess the
diagnostic accuracy of the triad in identifying
traumatic shaking (very low quality evidence).” In particular, the SBU noted that,
because the research base is riddled with
methodological flaws, including massive circularity, the “[s]ensitivity, specificity and predictive values” produced by the research
result in “incorrect conclusions” and “incorrect

App. 135
calculations of incidence.” In sum, the SBU
concluded that the evidentiary foundation for
SBS is of “very low quality.”
Feigned Consensus: Usurping the Law in Shaken Baby
Syndrome/Abusive Head Trauma Prosecutions, 2019
Wis. L. Rev. at 1232 (footnotes omitted).
Even though the SBU study, published post-trial,
demonstrated the lack of current scientific validity for
an SBS diagnosis, the trial judge still made no comment on whether he considered the SBS theory to be
valid. Nor did the trial court address the equally important question of whether the theory could be applied to the facts of this particular case. The trial
judge’s only statement was that he was “not insensitive
to the fact that there may be some difficulty or some
difference of opinion about that which is called shaken
baby syndrome.” T., p. 1359. Self-evidently, the trial
judge’s acknowledgment of a “difference of opinion”
falls short of fulfilling his gatekeeping obligation of
finding that the “testimony is scientifically valid” and
the “reasoning or methodology properly can be applied
to the facts in issue.”
The plurality’s opinion “that the trial judge
properly performed his role as gatekeeper by admitting Dr. Lakin’s testimony,” Clark, 2021 WL 401324, at
*3, cannot be reconciled with this Court’s leading decision in Mississippi Transp. Comm ‘n v. McLemore, 863
So. 2d 31 (Miss. 2003), which adopted Daubert, and
held that: “The trial court must make a ‘preliminary
assessment of whether the reasoning or methodology

App. 136
underlying the testimony is scientifically valid and of
whether that reasoning and methodology properly can
be applied to the facts in issue.’” McLemore, 863 So. 2d
at 36 (emphasis added).
McLemore disapproved of the trial judge’s taking
a “hands off ” approach to science when the reliability
of an expert’s opinion is at issue. McLemore stated:
The modified Daubert test does not require
trial judges to become scientists or experts.
Every expert discipline has a body of knowledge and research to aid the court in establishing criteria which indicate reliability. The
trial court can identify the specific indicia of
reliability of evidence in a particular technical
or scientific field. Every substantive decision
requires immersion in the subject matter of
the case. The [14] modified Daubert test will
not change the role of the trial judge nor will
it alter the ever existing demand that the
judge understand the subjects of the case,
both in terms of claims and defenses. We are
certain that the trial judges possess the capacity to undertake this review.
McLemore, 863 So. 2d 31 at 40.
Furthermore, a trial judge has the ability to appoint a special master if he considers scientific issues
beyond his expertise. See MISS. R. CIV. P. 53. A trial
judge can certainly reassign the case to a different
judge. Safeco Ins. Co. of Am. v. State ex rel. Hood, 2019
WL 3955084, at *4, 6 (Miss. 2019).

App. 137
Importantly, as this Court recently held, a judge
who needs judicial help can apply to the Supreme
Court for such relief. Liberty Mut. Ins. Co. v. State ex
rel. Hood, 277 So. 3d 542, 543 (Miss. 2019). Accordingly,
the trial judge, not the jury, should have made an onthe-record assessment of the scientific validity of a
SBS diagnosis, and whether that diagnosis can be applied to determine that Clark shook Kiley during the
two (2) and one-half hour period when he had exclusive
custody.
ARGUMENT II.
THE STATE’S FAILURE TO PROVE
CLARK’S GUILT BEYOND A REASONABLE DOUBT VIOLATED HIS UNITED
STATES CONSTITUTION AMENDMENT
FOURTEEN DUE PROCESS RIGHTS.
In Hampton v. State, 2021 WL 218983, *7 (Miss.
2021), this Court recently recognized the long-standing
rule that “where the case is based wholly on circumstantial evidence, the state must prove the defendant’s
guilt beyond a reasonable doubt and to exclusion of
every reasonable [15] hypothesis consistent with innocence.” “It is fundamental . . . that when in any essential respect the state relies on circumstantial evidence,
it must be such as to exclude every other reasonable
hypothesis than that the contention of the state is
true. . . .” Steele v. State, 544 So. 2d 802, 808 (Miss.
1989).

App. 138
In this case, Justice Ishee’s dissent noted that the
resuscitation attempts on Kiley were a reasonable hypothesis for the cause of her injuries. According to Justice Ishee’s accurate dissent:
Clark further questioned Dr. Lakin about
whether the numerous resuscitation attempts
made on Kyllie could have impacted Kyllie’s
diagnosis. The pathologist’s report listed “aggressive cardiopulmonary resuscitation” (CPR)
as one of the injuries observed at the autopsy.
Dr. Lakin admitted that several attempts
were made to resuscitate Kyllie. When questioned about whether the CPR could have
caused Kyllie’s subdural hemorrhages, Dr.
Lakin could not rule the possibility out.
Clark, 2021 WL 401324, at *20.
Justice Ishee’s dissent is supported by undisputed
evidence in the record. The scientific evidence is that
aggressive CPR causes both brain bleeding and rebleeding of old hematomas. C.P., pp. 734-35, 756, 76365, 1242-47, 1250-59, 1535-36; T., pp. 1272-73.
Choking and resuscitation are listed as other potential causes of the triad in the SBS study. Exh. Vol.
5, Exhibit D-1 to Sentencing Hearing Exhibit List (Affidavit of Dr. Mark Shuman, Exhibit A thereto, pp. 25557), attached hereto as Appendix G.
The record is undisputed that before leaving
home, both Clark and his then-wife, Bethany, performed CPR on Kiley, that CPR was performed in
Clark’s truck on the way to the Amory hospital, and

App. 139
that CPR was again performed at the Amory hospital.
T., pp. 102, 132-33, 596-97, 630-31, 635; Exh. Vol. 2, Exhibit S-2, Trial Exhibit List.8
[16] The probable existence of an earlier hematoma is also undisputed in the record. The terms
“chronic,” “subacute,” or “acute on chronic” all identify
hemorrhaging which is weeks to months old. While
Clark was away working during the week, his then
wife left Kiley with babysitters. There was undisputed
evidence that Kiley had been both dropped and fallen
on by her sister and/or a babysitter. T., pp. 177-79,
1067-68, 1120-21, 1068, 1213-1215.
Therefore, there is nothing in the record to dispute
the reasonable hypothesis that the CPR rendered at
home, on the way to the hospital, and at the hospital
caused a re-bleed of old hematomas which probably began when Kiley had been earlier dropped and stepped
on. The earlier trauma could have easily caused the hematomas. As explained in Ex parte Henderson, 384
S.W.3d 833, 847 (Tex. Crim. App. 2012):
Dr. Plunkett’s report in the present case, and
those of the other experts, show that the 1995
testimony of the State’s chief experts was, at
bottom, scientifically flawed and grounded
upon the belief that “short-distance falls” can
never case fatal infant head trauma. This belief no longer enjoys acceptance in today’s scientific community.
8

Clark’s statement to law enforcement at the Itawamba
County Jail two (2) days after Kiley’s death is Appendix F.

App. 140
Furthermore, the fact that the falls and being
stepped on did not immediately manifest proves nothing. In Del Prete v. Thompson, 10 F. Supp. 3d 907, 95455 (N.D. Ill. 2014), the court wrote:
Dr. Jenny’s testimony regarding the aforementioned chapter in her textbook, which
makes clear that the evidence basis for the
proposition that shaking alone can cause injuries of the type at issue here is arguably
non-scientific, specifically, perpetrator admissions, is equally new and equally significant.
Jenny herself testified, albeit with some reluctance, that medicine has come to understand
that a child victim of abusive head trauma can
have a lucid interval after suffering brain injury from abuse.
It is a reasonable hypothesis that Kiley’s bleeding
around the brain and eye areas first began when Kiley
was earlier dropped and/or stepped on. The brain bleed
was then grossly exacerbated by the aggressive CPR
which was performed before the Clarks left for the hospital, on the way to [17] the hospital, and at the Amory
hospital. In fact, Lakin’s opinion that the hemorrhaging and brain swelling connotes recent events tends to
support this reasonable hypothesis – that the severe
bleeding and brain swelling were incurred at the hospital during resuscitation efforts, which was after
Clark had exclusive custody of Kiley. This is documented by the fact that the radiology records describe
the injuries as “subacute” or “acute on chronic.” C.P.,
pp. 172, 182. In fact, the Certificate of Death states that

App. 141
the cause of the injury occurred on January 6, 2008,
when Kiley was in the hospital.9
Indeed, the reasonable hypothesis most consistent
with all of the evidence is that the brain bleed began
at some time during the falls and/or being stepped on
before Clark had exclusive custody on January 5, 2008.
Kiley then suffered symptoms (inability to breath) during Clark’s exclusive custody. The earlier brain bleed
was then exacerbated when the aggressive CPR was
performed, ultimately resulting in the brain hemorrhaging and brain swelling, which resulted in death.
This hypothesis is reasonable since it is consistent
with the testimony of the State Medical Examiner, that
“the time of the subdural hemorrhage cannot be determined,” Exh. Vol. 5, Exhibit D-18, T., p. 943, and is consistent with the radiology records, which described the
injury to the brain as being subacute or acute on
chronic, C.P., pp. 172, 182, and is consistent with the
Certificate of Death.
There is no scientific evidence that Lakin’s opinions of an SBS diagnosis and of an injury occurring exclusively when Clark had custody of Kiley during the
two (2) and a half hour time [18] period is scientifically
reliable. It is unreliable since it conflicts with the independent medical examiner’s opinion and the radiology
records. It does not reliably dispute Clark’s testimony, T., pp. 1145-1167, or Clark’s statement to law
9

The Certificate of Death is attached to the affidavit of Dr.
Karen Chancellor and was disclosed post-trial and attached to a
supplement to the motion for directed verdict or new trial. The
affidavit and Certificate of Death is attached at Appendix H.

App. 142
enforcement officers, Exh. Vol. 2, Exhibit S-2, Trial Exhibit List, and attached as Appendix F, that he did
nothing to harm his child.
Garner v. State of La., 368 U.S. 157, 164 (1961),
noted that it is a “denial of due process [to convict a
person] for which there is no evidence to support that
conviction.” The Due Process Clause has also been interpreted to require that a conviction cannot be upheld
when there is a reasonable doubt of guilt. “[W]e explicitly hold that the Due Process Clause protects the accused against conviction except upon proof beyond a
reasonable doubt of every fact necessary to constitute
the crime with which he is charged.” In re Winship, 397
U.S. 358, 364 (1970). According to Sandstrom v. Montana, 442 U.S. 510, 524 (1979), holding modified by
Boyde v. California, 494 U.S. 370 (1990), “a State must
prove every ingredient of an offense beyond a reasonable doubt, and . . . may not shift the burden of proof to
the defendant. . . .”
A conviction contravenes due process as arbitrary
when it rests solely on a finding by a jury of laymen
that an expert’s opinions are scientifically reliable. The
jury has not even seen the scientific articles.
There is no reliable evidence, direct or circumstantial, that Clark did anything to harm Kiley. The radiology records, the State Medical Examiner’s opinion, and
the Certificate of Death support Clark’s testimony, as
does the current scientific literature.
The failure to show the trial judge any current
medical evidence to support the conviction is also a due

App. 143
process violation. This SBU study was the current science when the motion for a new trial or directed verdict
was heard. The new SBU study was published after the
jury verdict and [19] before the post-trial motion hearing. Howard v. State, 300 So. 3d 101 1, 1018 (Miss.
2020), held that new scientific evidence warranted
post-conviction relief when the conviction was based on
new science discrediting “bite-mark evidence.” The
new SBU study was published after the jury verdict
and before the post-trial motion hearing. At the very
least, the trial court should have granted a new trial
when the new SBU study demonstrated that any studies purporting to document SB S as a valid medical diagnosis were not reliable.
In the context of the Eighth Amendment, , Moore
v. Texas, ___ U.S. ___, 137 S. Ct. 1039, 1049 (2017), held
that a court must apply “current medical standards.”
Similarly, a court should be required to apply “current
medical standards” in determining whether, under the
Due Process Clause,
a person may be convicted and sentenced to twenty
(20) years in prison based on unsupported opinion testimony. A conviction contrary to the radiology records,
contrary to the opinion of the State Medical Examiner,
contrary to the Certificate of Death, and contrary to
scientific evidence before the trial judge, cannot constitute the fair, reliable evidence, which United States
Constitution Amendment Fourteen requires.

App. 144
CONCLUSION
The conviction should be reversed. If a new trial is
ordered, the trial court should be instructed to conduct
a Daubert hearing and then to make findings on the
record as to whether SBS is a reliable scientific diagnosis, and, if so, whether that diagnosis can be applied
to the facts of this case, so as to determine that the injury was inflicted during the time period when Clark
had custody of Kiley. Until such a trial court determination, there is no occasion for any battle of the experts
at [20] a trial.
RESPECTFULLY SUBMITTED, this the 4th day
of March, 2021.
JOSHUA ERIC HAWK CLARK,
Appellant
By: /s/ Jim Waide
Jim
Waide
Mississippi Bar No. 6857
WAIDE & ASSOCIATES, P.A.
332 North Spring Street
Tupelo, MS 38804-3955
Post Office Box 1357
Tupelo, MS 38802-1357
(662) 842-7324 / Telephone
(662) 842-8056 / Facsimile
Email: waide@waidelaw.com

App. 145
By: /s/ Dan W. Webb
Dan W. Webb
Mississippi Bar No. 7051
WEBB SANDERS &
WILLIAMS, PLLC
363 North Broadway Street
Tupelo, MS 38804-3925
Post Office Box 496
Tupelo, MS 38802-0496
(662) 844-2137 / Telephone
(662) 842-3863 / Facsimile
Email: dwebb@webbsanders.com
Daniel M. Waide
Mississippi Bar No. 103543
JOHNSON, RATLIFF &
WAIDE, PLLC
Post Office Box 17738
Hattiesburg, MS 39404
(601) 582-4553 / Telephone
(601) 582-4556 / Facsimile
Email: dwaide@jhrlaw.net
ATTORNEYS FOR APPELLANT

[21] CERTIFICATE OF SERVICE
This will certify that undersigned counsel for Appellant has this day electronically filed the foregoing
pleading or other paper with the Clerk of the Court using the MEC system, which sent notification of such
filing to the following:
Lynn Fitch, Esquire
Attorney General

App. 146
Office of the Mississippi Attorney General
Post Office Box 220
Jackson, MS 39205-0220
jhood@ago.state.ms.us
Jason L. Davis, Esquire
Assistant Attorney General
Office of the Mississippi Attorney General
Post Office Box 220
Jackson, MS 39205-0220
jdavi@ago.state.ms.us
Scott Stewart, Esquire
Office of the Mississippi Attorney General
Post Office Box 220
Jackson, MS 39205-0220
sstua@ago.state.ms.us
Ashley Lauren Sulser
Office of the Mississippi Attorney General
Post Office Box 220
Jackson, MS 39205-0220
Ashley.Sulser@ago.ms.gov
W. Tucker Carrington, MS Bar No. 102761
MISSISSIPPI INNOCENCE PROJECT
University of Mississippi School of Law
Post Office Box 1848
University, MS 38677-1848
wtc4@ms-ip.org
Taylor Hamilton Webb
[22] Tollison Law Firm
103 North Lamar Blvd., Suite 201
P.O. Box 1216
Oxford, MS 38655
taylor@tollisonlaw.com

App. 147
(Via U.S. Mail)
Honorable Thomas Gardner
Circuit Court Judge
Post Office Drawer 1100
Tupelo, MS 38802
Honorable Paul Funderburk
Circuit Court Judge
Post Office Drawer 1100
Tupelo, MS 38802
Honorable John White
Circuit Court Judge
Post Office Drawer 1100
Tupelo, MS 38802
Honorable Kelly Mims
Circuit Court Judge
Post Office Drawer 1100
Tupelo, MS 38802
John Weddle, Esq.
David Daniels, Esq.
District Attorney’s Office
P O Box 7237
Tupelo, MS 38802-7237
THIS, the 4th day of March, 2021.
/s/ Jim Waide
Jim Waide

